<html>
<title> - TEA-21 OVERSIGHT: INTELLIGENT TRANSPORTATION SYSTEMS</title>
<body><pre>[Senate Hearing 107-567]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-567

          TEA-21 OVERSIGHT: INTELLIGENT TRANSPORTATION SYSTEMS

=======================================================================

                                HEARING

                               BEFORE THE

   SUBCOMMITTEE ON TRANSPORTATION, INFRASTRUCTURE, AND NUCLEAR SAFETY

                                 OF THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           SEPTEMBER 10, 2001

                               __________

  Printed for the use of the Committee on Environment and Public Works

                                 ______

80-652              U.S. GOVERNMENT PRINTING OFFICE
                            WASHINGTON : 2003
____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpr.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

         COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS<SUP>1</SUP>

                      one hundred seventh congress
                             first session
                  JAMES M. JEFFORDS, Vermont, Chairman
MAX BAUCUS, Montana                  BOB SMITH, New Hampshire
HARRY REID, Nevada                   JOHN W. WARNER, Virginia
BOB GRAHAM, Florida                  JAMES M. INHOFE, Oklahoma
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    MICHAEL D. CRAPO, Idaho
THOMAS R. CARPER, Delaware           LINCOLN CHAFEE, Rhode Island
HILLARY RODHAM CLINTON, New York     ARLEN SPECTER, Pennsylvania
JON S. CORZINE, New Jersey           BEN NIGHTHORSE CAMPBELL, Colorado

                Ken Connolly, Democratic Staff Director
                Dave Conover, Republican Staff Director
                                 ------                                

   Subcommittee on Transportation, Infrastructure and Nuclear Safety

                      HARRY REID, Nevada, Chairman

MAX BAUCUS, Montana                  JAMES M. INHOFE, Oklahoma
BOB GRAHAM, Florida                  JOHN W. WARNER, Virginia
JOSEPH I. LIEBERMAN, Connecticut     CHRISTOPHER S. BOND, Missouri
BARBARA BOXER, California            GEORGE V. VOINOVICH, Ohio
RON WYDEN, Oregon                    LINCOLN CHAFEE, Rhode Island


                            C O N T E N T S

                              ----------                              
                                                                   Page

                           SEPTEMBER 10, 2001
                           OPENING STATEMENTS

Graham, Hon. Bob, U.S. Senator from the State of Florida.........     4
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     5
Reid, Hon. Harry, U.S. Senator from the State of Nebraska........     1
Smith, Hon. Bob, U.S. Senator from the State of New Hampshire....     6
Warner, Hon. John W., U.S. Senator from the Commonwealth of 
  Virginia.......................................................     3

                               WITNESSES

Albert, Steve, director, Western Transportation Institute, 
  Bozeman, MT....................................................    22
    Prepared statement...........................................   208
Beall, James, Jr., chairman, Santa Clara Board of Supervisors, 
  San Francisco Bay Area Metropolitan Transportation Commission, 
  San Jose, CA...................................................    17
    Details, High-Tech Transportation Applications..............201-206
    Prepared statement...........................................   197
Johnson, Christine, director, Intelligent Transportation Systems 
  Joint 
  Program, Office, U.S. Department of Transportation, Washington, 
  DC.............................................................     7
    Prepared statement...........................................    26
    Report, Intelligent Transportation Systems Benefits, 2001 
      Update.....................................................31-118
Manning, Martin, director, Clark County Department of Public 
  Works, Las Vegas, NV...........................................    19
    Prepared statement...........................................   207
Tinklenberg, Elwyn, commissioner, Minnesota Department of 
  Transportation, St. Paul, MN...................................     9
    Prepared statement...........................................   119
Yermack, Larry, chairman, Intelligent Transportation Society of 
  America, Washington, DC........................................    10
    Prepared statement...........................................   124
    Report, Tracking the Deployment of the Integrated 
      Metropolitan Intelligent Transportation Systems 
      Infrastructure in the USA: Fiscal Year 2000 Results.......130-191
    Responses to additional questions from:
        Senator Reid.............................................   192
        Senator Smith............................................   194

 
          TEA-21 OVERSIGHT: INTELLIGENT TRANSPORTATION SYSTEMS

                              ----------                              


                       MONDAY, SEPTEMBER 10, 2001

                               U.S. Senate,
       Committee on Environment and Public Works,  
        Subcommittee on Transportation, Infrastructure,    
                                      and Nuclear Safety,  
                                                Washington, DC.    
    The subcommittee met, pursuant to notice, at 3:36 p.m. in 
room 406, Dirksen Senate Office Building, Hon. Harry Reid, 
(chairman of the subcommittee) presiding.
    Present: Senators Reid and Warner.

  OPENING STATEMENT OF HON. HARRY REID, U.S. SENATOR FROM THE 
                       STATE OF NEBRASKA

    Senator Reid. The hearing will come to order.
    We welcome everyone to today's hearing on the Intelligent 
Transportation Systems Programs. We're almost two-thirds of the 
way through the 6-year authorization of the Transportation 
Equity Act for the 21st Century, or TEA-21, and it's time to 
start thinking about the next transportation bill. Senator 
Warner, that time moves fast, doesn't it?
    Senator Warner. It sure does.
    Senator Reid. The ever-increasing gap between the demand 
for transportation and the capacity of our infrastructure is 
one of our biggest challenges as we look to the future. 
Virtually every American depends upon our Nation's 
transportation infrastructure to get to work, run errands, go 
to school and deliver the products which keep our economy 
going. Transportation for better or worse is a vital part of 
everyone's life and the backbone of our economy.
    This is why our next transportation bill is so vitally 
important. People are tired of spending so much time stuck in 
traffic. The quality of life suffers, productivity declines, 
and air pollution worsens the system when the system doesn't 
function effectively.
    With limited resources and limited space available for new 
roads, we increasingly need to look to innovative solutions. 
That's why I'm pleased we're here today to discuss this 
Intelligent Transportation Systems program. The ITS program can 
make important contribution to safety through the Intelligent 
Vehicle Initiative and to advance communications and traveler 
information systems in rural areas. ITS initiatives are also 
improving the efficiency and safety of commercial vehicles 
through new high-tech communications and information systems.
    Perhaps the most exciting aspect of ITS involves deploying 
infrastructure-based technologies to improve the operations of 
congested metropolitan roadways. Often building new capacity in 
metropolitan areas is not an option due to the high cost of 
right-of-way acquisition, the lack of available space, 
environmental concerns or clean air conformity issues. The only 
way to alleviate congestion in such instances is to encourage 
the use of alternative transportation modes and to make 
existing roadways operate much more efficiently.
    I'm pleased today that Marty Manning, the Public Works 
Director for Clark County, NV--that's where Las Vegas is 
located--is able to join us today to discuss some of the 
intelligent transportation initiatives the Las Vegas region is 
employing to address the tremendous growth that has taken place 
there.
    In a fast-growing State like Nevada, particularly the Las 
Vegas region where current road infrastructure is overwhelmed, 
we need to use every resource available to address this 
problem. We need to improve and expand our existing road 
infrastructure. We need to provide more and better mass transit 
options for commuters and visitors. We need to take advantage 
of new technologies to ensure that we make the most efficient 
use of our existing infrastructure.
    More and more, we will have to shift our focus from the 
construction of new roads to improving the operations of 
existing roads. We will have a hearing next year focused on the 
management and operation of our regional transportation 
systems, but the Intelligent Transportation Systems program is 
a vital piece of the operations puzzle, and I look forward to 
hearing from our witnesses on the status of our future.
    We're going to begin today to raise a concern about the 
mid-session review released by the Administration in August. 
The mid-session review estimated that highway trust fund 
revenues are falling so quickly that highway spending could be 
reduced by some $6 billion next year. Given the needs of our 
transportation system and the slowing economy, this could have 
substantial negative impact in terms of foregone infrastructure 
improvements and lost construction jobs.
    The last thing a slower economy needs is for the Federal 
Government to cut back on infrastructure investments and good 
construction jobs.
    So I look forward to receiving a full briefing from the 
Administration on these new projections, and keep a close eye 
on this issue.
    I say to my friend--he and I have worked so closely 
together on this committee all the time that I've been in the 
Senate, Senator Warner--that southern Nevada is much like 
northern Virginia; tremendous growth; real difficulty keeping 
up with the growth options.
    Senator Warner. Fastest-growing in America, is it not, Mr. 
Chairman? Yes.
    Senator Reid. But northern Virginia is much like Las Vegas 
in many respects. So I welcome your statement here, Mr.--I 
should always call you ``Mr. Chairman''--because we've gone 
back and forth on who is running this subcommittee, and I still 
don't know who's running it for sure.
    Senator Warner. Oh, I do. You are.
    [Laughter.]
    Senator Reid. Anyway, so I certainly welcome a statement by 
you, Senator Warner.

           OPENING STATEMENT OF HON. JOHN W. WARNER, 
         U.S. SENATOR FROM THE COMMONWEALTH OF VIRGINIA

    Senator Warner. Thank you, Mr. Chairman.
    Indeed, we have worked together all these many years, and 
this is a particularly interesting subcommittee. I was 
privileged to be chairman of it some years ago, and Senator 
Inhofe, the ranking member--speaking of transportation, his 
plane was canceled, so he's on a follow-up flight and will soon 
be here.
    So, I join you in welcoming our witnesses today. I want to 
commend you, Mr. Leader, for finding the time. As Assistant 
Majority Leader, you'll go down in history as one of the more 
effective, certainly in the 23 years that I've been in the 
Senate. But having found the time to come over and fulfill 
other responsibilities such as this in the Senate is a great 
value to the institution. All too often, our leaders are just 
preempted by necessity from actively participating in hearings 
like this.
    But I think back today as I visited with Ms. Johnson, of 
1991 when our distinguished colleague Senator Moynihan was the 
chairman of the full committee. I worked with him, and indeed 
Ms. Johnson, you were there when we laid the cornerstone for 
this program. I expect you will allude to that in your 
testimony.
    The program, as you said, Mr. Chairman, is designed to 
promote research and development of advanced communications 
technologies that could be utilized in our Nation's highways, 
rail and transit systems. We have a phrase in the Armed 
Services Committee, where I do a little labor from time to 
time, called ``force multiplier.'' In other words, to the 
extent we can improve our intelligence and the other things, we 
can better utilize the entire force that we have. I look upon 
this concept as a force multiplier because, as the 
distinguished chairman said, we can only lay down so much 
asphalt and concrete. We've got to move ahead. But there are 
certain areas, like yours in Las Vegas and mine in northern 
Virginia, where there is just no more room to take concrete, 
but the transportation is gridlocked.
    This enables us to take that infrastructure in place today 
and multiply it so that we get higher and better utilization 
for the investors who put in the money--the taxpayers--and the 
current users today.
    So I remember when I was chairman of the committee in 1998, 
TEA-21, we had seen how from 1991 to 1998, it was a research 
program. We finally said, let's fish or cut bait and go forward 
and begin to deploy these technologies. And that we did. If I 
may say with some modesty, I think my State has been in the 
forefront of those States that have utilized these systems. I 
think the purpose of this hearing is to incentivize other 
States to do the same.
    So I will put the balance of my statement into the record, 
and look forward to receiving testimony, Mr. Chairman.
    [The prepared statement of Senator Warner follows:]

   Statement of Hon. John Warner, U.S. Senator from the Commonwealth 
                              of Virginia

    Mr. Chairman, I join in welcoming the witnesses before the 
subcommittee today to provide testimony on the deployment of 
Intelligent Transportation Systems and ongoing research efforts under 
the program.
    I remember very well back in 1991 that it was this committee that 
promoted the new Intelligent Vehicle Highway System, or IVHS as it was 
then known, as part of the ISTEA authorization bill.
    That program was designed to promote the research and development 
of advanced communication technologies that could be utilized in our 
Nation's highways, rail and transit systems.
    In 1998, TEA-21 took the next step and revised the ITS program to 
focus on deployment of these new technologies.
    As we continue to examine how we can reduce congestion on our urban 
highways and increase emergency responses on our rural highways, ITS 
technologies are becoming part of the solution.
    There will always be a need for new highway construction projects, 
but in urban areas it is clear that new construction alone is not the 
solution.
    Incentives to increase transit ridership, telework programs and new 
ITS applications are important components of any transportation plan to 
improve the mobility of people commuting to work, or in moving American 
products across the country.
    I look forward today to hearing how the program is advancing. Are 
States implementing ITS technologies into their routine project 
planning process? Is the Commercial Vehicle Information Systems and 
Network being deployed?
    I would also like to hear from the panels today about the 
Intelligent Vehicle Initiative. Many of these technologies, such as 
computer navigation aids, are designed to help drivers with directions 
and emergency response. Safety experts, however, are concerned about 
the increasing driver distractions with these navigation aids, as well 
as increased cell phone use.

    Senator Reid. Thank you, Senator Warner.
    I would also note that Senator Inhofe is a very diligent 
member of this subcommittee. He always does his very best to 
attend these hearings. I know he would be here today had his 
plane not been canceled.
    Senator Warner. He called me and asked if I would do the 
best to stand in for him. I said I was pleased to do so.
    Senator Reid. I would ask unanimous consent that the 
statement of Senator Bob Graham be made part of the record as 
if given here today.
    Senator Warner. And likewise, could I put one in for 
Senator Inhofe, Mr. Chairman.
    Senator Reid. That will be the order.
    Senator Warner. Thank you.
    [The prepared statements of Senators Graham and Inhofe 
follow:]
  Statement of Hon. Bob Graham, U.S. Senator from the State of Florida
    Mr. Chairman, I'd like to thank you for calling this hearing. 
Intelligent Transportation Systems have long been an interest of mine. 
I take a different job every month, and one of my more recent 
transportation jobs was a day spent with the Orlando, Florida's ITS 
experts. It was a hands-on experience that helped me understand the 
tremendous potential of technology in transportation, and where we 
still have work to do to better integrate it into our existing 
infrastructure.
    When we last reauthorized the surface transportation bill, I was 
pleased that ITS received such a focus in TEA-21. Since ITS, at that 
time, was an evolving component of our transportation universe, I felt 
then that we had a lot to learn about it.
    I thought we took steps in TEA-21 to make sure that the Department 
of Transportation and the authorizing committees could get the best 
information about uses of ITS in our communities. I have been troubled 
over the past several appropriations cycles that money that was to have 
been distributed by the Secretary of Transportation on a competitive 
basis has been consistently earmarked to various communities without 
much thought or rationale.
    I understand that the Department of Transportation is trying to 
make the best of these circumstances by collecting ITS information from 
the communities that received earmarks that we can use during the next 
reauthorization cycle. But, I would like us to be even more vigilant 
during the appropriations process to make sure that money that is being 
earmarked for ITS is consistent with the goals and purposes that we 
outlined in TEA-21.
    In many areas in our country, I believe that ITS will be an answer 
to congestion and frustration on our highways. We have reached a point 
in places that it's physically impossible to add a lane of highway--
meaning we need to use our existing infrastructure in a more efficient 
manner. I believe ITS will allow us to do this--but I would like to be 
able to say that conclusively when we next look at a surface 
transportation bill.
    If we lose the chance now to collect and analyze ITS data, explore 
``lessons learned,'' and deploy this technology in a rational, 
scientific manner, we will all be less able to make informed decisions 
when the time comes for reauthorization.
    Mr. Chairman, thank you again for holding this hearing. I look 
forward to learning from these witnesses, and working with you on ITS 
issues in the future.
                                 ______
                                 
    Statement of Hon. James M. Inhofe, U.S. Senator from the State 
                              of Oklahoma

    Thank you Mr. Chairman. I would like to join you in welcoming our 
distinguished witnesses. I appreciate the time and effort they have 
taken to be here today, and I looking forward to hearing their views on 
the status of Intelligent Transportation Systems (ITS).
    I was on the House Public Works and Transportation Committee when 
ITS was first discussed in ISTEA. Back then we called it IVHS for 
Intelligent Vehicle Highway Systems. The focus of the discussion at 
that time seemed to be more on driver less cars rather than the 
applications we will learn about today. To be frank, I was a little 
weary of the claims and promises of the IVHS imitative because it 
seemed a little far fetched to me. However, the research vision of 
ISTEA has resulted in some very practical innovations which are now 
referred to as ITS. Although I understand the Intelligent Vehicle 
Initiative (IVI) is working on some of those ``geewiz'' gadgetry of 
IVHS, I am more intrigued by the advances in traffic operations that is 
now being deployed.
    My State of Oklahoma has been on the cutting edge of this 
technology. As one of the first States in the Nation to implement 
Electronic Toll Collection (ETC) or the PIKE PASS we in Oklahoma have 
enjoyed for many years now the convenience of driving through a toll 
booth instead stopping, waiting in line only to find our you don't 
either have enough or the right change.
    The national 511 initiative is very exciting. As the backbone of a 
national infrastructure, consumers will be able to get travel 
information regardless of their location and will not only be able to 
communicate more easily with emergency personnel, but will be easier to 
locate in emergency. Certainly this is a very positive development, yet 
it raises some very troubling concerns, namely privacy, particularly 
with any tracking or geolocation devices. I hope Christine Johnson, 
Director, Intelligent Transportation Systems Joint Program Office, U.S. 
Department of Transportation will be able to give us some level of 
comfort as to how we can enjoy the benefits of ITS innovation without 
sacrificing our right to personal privacy.
    Oklahoma is at the crossroads of north/south and east/west freight 
movement. As such I have an interest in hearing how the intermodal 
logistics and commercial vehicle initiatives are progressing and will 
be especially interested in learning from Mr. Lawrence Yermack, 
Chairman of Intelligent Transportation Society of America about 
commercial applications of ITS technology.
    Despite the presence of two major metropolitan cities . . . Tulsa 
and Oklahoma City, OK is still a rural State and I understand ITS 
technology has some real safety benefits for smaller communities and 
sparsely populated areas. I understand Steve Albert from the Western 
Transportation Institute will discuss rural applications and I look 
forward to his testimony.
    Finally, I understand that Elwyn Tinklenberg, commissioner, 
Minnesota Department of Transportation will discuss ITS technology from 
a State level prospective; James Beall, Jr., chairman Santa Clara Board 
of Supervisors, will provide the local prospective; and Martin Manning, 
director, Clark County Department of Public Works will discuss how ITS 
can be used to address problems associated with the rapid population 
growth.
    Again, thank you Mr. Chairman for giving me the opportunity to 
personally welcome our witnesses and I look forward to hearing what 
they have to share with us.

    Senator Reid. I would tell the members of the two panels--
we have two panels today. The first is going to have Christine 
Johnson from the U.S. Department of Transportation; Elwyn 
Tinklenberg, commissioner of the Minnesota Department of 
Transportation, here representing the American Association of 
State Highway and Transportation Officials; and Larry Yermack, 
the chairman of the Intelligent Transportation Society of 
America--the first panel.
    The second panel will give an update on how the Intelligent 
Transportation Program is working in specific metropolitan and 
rural regions. Marty Manning, who is here representing Clark 
County, NV and the American Public Works Association; Jim Beall 
is representing the San Francisco Bay Area Metropolitan 
Transportation Commission; and Steve Albert is here from the 
Western Transportation Institute at Montana State University.
    We look forward to hearing your testimony today, but we 
have a vote scheduled this afternoon. So we need to be out of 
here as close to 5 o'clock as we can. So for each of you, let 
me just say this. Your testimony, of course, is taken down by a 
court reporter. It is transcribed and available to every 
Senator. This is the foundation that we're laying for next 
year's very important transportation bill that we do every 5 
years.
    We have to have Intelligent Transportation as part of the 
mix. It's been part of the mix before, but we have to start 
putting some money there, because we'll hear from Mr. Manning. 
I mean, people don't know whether to get on the I-15. Is it too 
busy? You never know until you get on it, and by then it's too 
late. You can't get off. This is the way it is all over 
America. We need some simple things to allow people more 
intelligence as to what, where and how they should go.
    So we look forward to your testimony. We would ask each of 
you to hold your statements to 5 minutes, and then we will ask 
some questions and go on to the next series of witnesses.
    We are going to first hear from you, Mrs. Johnson.
    Senator Warner. Mr. Chairman, if she would yield 
momentarily. The ranking member of the committee, Mr. Smith, is 
now on the floor with an amendment to the pending legislation. 
Otherwise, he would be present, and therefore I ask that his 
statement be made a part of today's record.
    Senator Reid. I visited with Senator Smith. I should have 
mentioned that just before coming over here. His amendment will 
be voted on this afternoon.
    [The prepared statement of Senator Smith follows:]

      Statement of Hon. Bob Smith, U.S. Senator from the State of 
                             New Hampshire

    Thank you Mr. Chairman for holding this hearing on the Intelligent 
Transportation Systems Program. I would say that Federal investment in 
the ITS program over the last 10 years has yielded a large and broad 
array of research and products. I think it is now time to assess what 
has been learned, and to better focus the ITS program on putting the 
effective and successful applications on the ground.
    For instance, officials in New Hampshire are interested in several 
proven ITS applications. One proposal is for variable speed limit signs 
along I-95 where weather conditions often change the driving 
conditions. Another application is for remote rural weather information 
systems. Better weather forecasting is essential to planning personal 
and commercial vehicle travel and for proper salt application rates 
where salt is laid before a storm hits to avoid icy road conditions. 
Finally, with the construction of a traffic operations center, New 
Hampshire's interstates and turnpikes could incorporate traveler 
information, changeable message signs and incident management systems 
to improve safety and efficiency on major routes. New Hampshire has 
none of these systems and very little related infrastructure in place, 
and with limited transportation funds, the State cannot afford to get 
started toward the $30 million cost of these proposals.
    Mr. Chairman, I am concerned about the progress of ITS deployment 
in both metropolitan and rural areas. In the Transportation Equity Act 
for the 21st Century (TEA-21), Congress directed approximately half of 
the $1.3 billion ITS program funding to research and implementation and 
the other half to specific deployment activities. Less than 10 percent 
of the research and implementation funds have gone for assistance to 
States in developing ITS projects. Congress further directed the 
Secretary of Transportation to competitively award deployment funds to 
encourage advanced integration of existing ITS systems. Instead, these 
funds have been earmarked in appropriations bills to fund a variety of 
ITS activities across the country. ITS projects are also eligible for 
Federal funding from the States' TEA-21 formula apportionments but must 
compete with other project needs. With these funding options, ITS 
deployment has gone from just 6 percent of metropolitan transportation 
system coverage to only 22 percent coverage. This experience teaches us 
that neither a discretionary program nor a passive eligibility program 
will result in significant deployment of ITS applications. I look 
forward to working with my colleagues during the reauthorization of 
TEA-21 to restructure the ITS program to get these systems on the 
ground where they can benefit the traveling public.
    Thank you, Mr. Chairman.

     STATEMENT OF CHRISTINE JOHNSON, DIRECTOR, INTELLIGENT 
TRANSPORTATION SYSTEMS JOINT PROGRAM OFFICE, U.S. DEPARTMENT OF 
                 TRANSPORTATION, WASHINGTON, DC

    Ms. Johnson. Mr. Chairman, members of the subcommittee, 
thank you very much for this opportunity to appear before you 
today and report on the ITS program. In my written testimony, I 
have detailed the progress of the four main ITS provisions in 
TEA-21.
    Today, much as you have done, I would like to focus my 
remarks on the Secretary's own priority of deployment. 
Secretary Mineta has committed the Department to advancing ITS 
to the next level, and has stated that during his tenure the 
benchmark for that success will be deployment. In order for our 
efforts to be truly successful, the public must know that we 
are investing our tax dollars in programs that work for them. 
He has said, ``We must deliver the practical, usable 
transportation systems that can benefit the public today. 
Deployment is all about delivering the solutions that will 
provide the public with real transportation alternatives.''
    So what I would like to do is look at some of the questions 
that tend to surround ITS deployment. Is it being deployed? Is 
it going fast enough? Is it making a difference? Finally, one 
that we often hear, can't we do better than ``congestion 
ahead'' signs that we see on our freeways?
    As we look across the United States, we see solid evidence 
that ITS is, in fact, being deployed. Nearly three-quarters of 
the largest metropolitan areas have ITS deployment underway. 
There are more than 50 traffic control centers in operation, 
with many more on the drawing boards. Thirty-one percent of the 
fixed-route buses have some form of ITS tracking technology; 
seventy percent of all the toll facilities use ITS for toll 
collection; and finally, there are now more than 1 million 
vehicles equipped with ITS crash notification technology.
    This deployment is making a difference. I'll give you two 
examples--one in northern Virginia. We did an evaluation that 
found if ITS had not been deployed on I-66, we would be 
experiencing 25 percent worse congestion. The second is in San 
Jose, where ITS location technology on the paratransit system 
there has reduced the per-passenger cost nearly 25 percent.
    These are but two examples. There are many, many more, and 
every year we take evaluations of these kinds of projects and 
catalogue them in an annual report that we would be willing to 
submit for the record.
    The question is: Is this level of deployment enough? The 
Secretary says no. Very few States or metropolitan areas have a 
complete system in place. Over the last decade, we have moved 
from about 6 percent of our major metropolitan areas being 
instrumented, to about 22 percent today. Hence, we don't have 
enough information about what is happening on the road to say 
much more than ``congestion ahead.''
    I don't know that we would be terribly comfortable with 
having an air traffic control system, for example, that only 
had 22 percent radar coverage. Yet, that is what we are dealing 
with on the surface transportation system. By contrast, in 
Paris, they offer on overhead signs and other media, very 
detailed information on travel time and alternative routes.
    Although Intelligent Transportation Systems are eligible 
for most Federal aid funding categories, these projects are 
competing with traditional construction needs for available 
funds. Most State DOTs do not have a primary mission of 
operating the system in the same way that they recognize a 
mission of constructing or maintaining the physical 
infrastructure. If funds are limited, as they often are, the 
primary mission of physical infrastructure, either construction 
or renewal, will tend to take priority.
    Indeed, we have begun to realize that no institution has 
congestion management as a primary mission, except on those 
rare occasions when a special event such as the Olympics or 
another large special event comes to town. Except for those 
special events, no one has enough of a stake in the daily 
performance of the system to insist on a level of ITS 
deployment that would enable operating the system at its peak 
performance.
    If we are going to move to the next level of deployment, as 
Secretary Mineta has called for, it will require us to do more 
than fit ITS into the existing funding mechanisms, into the 
existing institutional structures, or into the existing 
regulations. It will require us to transcend the existing 
transportation culture that has been created around 
constructing projects, and to develop a new culture that is 
focused on the performance of the system, the way the customer 
actually experiences that performance--door-to-door--regardless 
of who owns the road, regardless of who owns the bus, 
regardless of who owns the parking lot.
    In closing, I thank you again for this opportunity to 
address where we are going in the ITS program, and what things 
we need to do.
    I am happy to answer any questions that you may have.
    Senator Reid. We look forward to working with the Secretary 
on our new bill next year. Let me just say this--I was just 
handed this. Nevada's largest newspaper has an e-briefing they 
put out by a man by the name of Steve Sebelius. Here's what he 
says today: ``The Subcommittee on Transportation of the 
Senate's Environment and Public Works Committee today will hold 
a hearing chaired by our own U.S. Senator Harry Reid on 
Intelligent Transportation Systems. The systems use technology 
to reduce congestion on highways, and that's something we all 
need, especially after this morning's little-stroll-through-
hell commute, in which cars on the Summerlin Parkway were 
backed up to Rampart Boulevard. Clark County Public Works Chief 
Marty Manning will testify at this hearing.''
    Mr. Tinklenberg, please proceed.

         STATEMENT OF ELWYN TINKLENBERG, COMMISSIONER, 
      MINNESOTA DEPARTMENT OF TRANSPORTATION, ST. PAUL, MN

    Mr. Tinklenberg. Thank you, Mr. Chairman and members.
    My name is Elwyn Tinklenberg. I am the commissioner of the 
Minnesota Department of Transportation, and chair of the 
Advanced Transportation System Subcommittee of AASHTO. Thank 
you for this opportunity to share with you a major 
transportation success story--the progress made in deploying 
ITS. My written testimony, which I request be made part of the 
record, details the ITS benefits that have resulted from your 
vision and foresight in including ITS as a key component of our 
Federal highway and transit programs.
    I can speak from personal experience in Minnesota when I 
say that ITS deployments have made significant improvements in 
rural, urban, transit and commercial vehicle applications. Not 
only that, they have produced new partnerships never before 
envisioned, transferred advanced technology from NASA and the 
defense industries, and enabled us to stretch the use of our 
transportation systems in new ways.
    We will have to stretch to accommodate the travel needs of 
another 100 million people over the next 40 years, as well as 
the doubling in freight volumes over the next 20 years. ITS 
technologies have already proven their effectiveness in 
improving our operations, while increasing our safety. In the 
Twin Cities, adaptive signal systems, combined with ramp 
metering, have improved freeway travel time 22 percent, reduced 
crashes by 24 percent, and improved freeway throughput by 14 
percent. Use of our road/weather information system provides 
motorists with real-time information and improves winter 
maintenance, significantly reducing accidents on highways and 
bridges. A computer-aided dispatching system for emergency 
vehicles is saving lives.
    Those kinds of successes are mirrored across the Nation. E-
Zpass electronic toll collections are saving both money and 
time. Incident management systems are reducing travel delays by 
up to 2 million hours per year. Automated crash notification, 
or Mayday systems, means safer travel. Reduced delay and 
congestion also mean cleaner air.
    Transit systems benefit from ITS through the use of 
automatic vehicle locators, scheduling software, and automatic 
dispatching. From Transportation Management Centers to the 
cooperative development of 511 traveler information deployment, 
ITS has fostered unique and effective partnerships between 
Federal, State and local agencies, industry and national 
associations such as AASHTO.
    Is the picture all rosy? I would have to say, not 
completely. Of the 75 largest urban areas in the country, 24 
have a high level of integrated ITS tools. Twenty-two percent 
of their freeways have real-time data collection. Thirty-one 
percent of their transit facilities have vehicle locator 
technology.
    The progress is substantial, but there is much to achieve. 
ITS technology is a key component of a new focus on 
transportation systems operation, and will be highlighted at 
the upcoming National Summit on Operations this October 16-18.
    As we look to the future, there is a vital need for 
continuing a strong Federal presence in a number of areas. 
First, research and operational testing is needed for 
priorities such as crash avoidance technology, advanced 
transportation system management, vehicle monitoring and 
enhanced data collection. Second, training and technology-
sharing is essential to develop the skilled technical workforce 
needed at the State and local levels. Third, looking to the 
next generation of ITS, the development of open, flexible and 
uniform standards by associations such as AASHTO is required to 
ensure systems will be integrated and easy to use. Fourth, 
continued funding of an ITS deployment category will stimulate 
the use and integration of new technologies that might 
otherwise not be tried. Finally, we need to simplify project 
approvals and find solutions to administrative, regulatory or 
statutory hurdles that can slow down deployment.
    In the last 10 years, ITS has turned the corner from a 
vision to a reality, and has demonstrated its powerful 
potential for transforming our transportation system.
    Mr. Chairman, I would be pleased to answer any questions 
you may have at the conclusion of the hearing.
    Thank you.
    Senator Reid. Mr. Yermack.

       STATEMENT OF LARRY YERMACK, CHAIRMAN, INTELLIGENT 
       TRANSPORTATION SOCIETY OF AMERICA, WASHINGTON, DC

    Mr. Yermack. Chairman Reid, Senator Warner, thanks for the 
opportunity to discuss the Intelligent Transportation Systems 
with you today.
    My name is Larry Yermack. I'm the chairman of the board of 
the Intelligent Transportation Society of America, a not-for-
profit 501(c)(3) organization with over 600 members, including 
State Departments of Transportation, other associations, not-
for-profits, and private companies. ITS America is the Federal 
Advisory Committee to the U.S. Department of Transportation, 
dedicated solely to intelligent transportation systems. I also 
serve as the president of PB Farradyne, a transportation 
engineering company.
    My message to you today is this. The significant investment 
that the Federal Government has made in ITS has been money well 
spent, delivering significant benefits to the American people. 
Not only is travel safer and more efficient, but the ITS 
program has also laid a foundation for an explosion in 
consumer-oriented technologies. To date, 55 of the largest 75 
metropolitan areas have met the goal of medium-to-high 
deployment of ITS. Traffic Management Centers have been 
established in two-thirds of the areas, monitoring freeway 
traffic and providing early notification of incidents. Over 384 
public transit systems nationwide have installed or are 
installing components of ITS to provide the public with safer 
and more effective public transportation.
    Computer-aided dispatch has been installed in 67 percent of 
the emergency management vehicles, and 36 percent have in-
vehicle route guidance. Telematics devices, advanced in-vehicle 
communications technologies, allow for automated crash 
notification, remote diagnostics and a variety of mobile 
commerce applications. Onstar, one of the more recognized 
telematics brand names, currently has 1.2 million subscribers. 
Eight million cars worldwide have been equipped with navigation 
units.
    The trucking industry has begun to adopt three ITS 
technologies in an attempt to enhance the safety, efficiency 
and productivity of the movement of goods on America's roads: 
transponders, Commercial Vehicle Information Systems and 
Networks, otherwise known as CVISN, and intelligent vehicle 
technologies for heavy trucks.
    Transponders have the ability to monitor drivers, vehicles 
and loads to ensure safe and efficient trucking operations. The 
goal is the deployment of a single, multi-purpose transponder 
that can handle toll payment, weigh in motion, credentialling 
and other applications.
    Currently, 30 States use transponders to pre-clear trucks 
through roadside inspections. The Federal Commercial Vehicle 
Information Systems and Networks architecture provides a 
uniform framework for electronic credentialling. Thirty-four 
States are in the process of initiating CVISN, and eight States 
have completed the initiation, resulting in a 75 percent 
reduction in the current cost of credential administration for 
both the States and industry. Intelligent vehicle devices for 
heavy trucks such as rollover and collision warning systems 
continue to make trucking safer.
    The benefits of ITS are abundantly evident, and ITS 
infrastructure results in a smoother traffic flow and fewer 
stops, which enhances safety by providing less speed variance 
and fewer opportunities for crashes. Ramp metering alone has 
been proven to reduce crashes by up to 50 percent. Road/weather 
information systems have proven effective at lowering speeds 
and increasing safety during adverse driving conditions. 
Adaptive signal controls and incident management programs have 
significantly reduced traffic delays, while Traffic Management 
Centers collect data on accidents and road conditions advance 
traveler information systems deliver this information directly 
to the driver and empower drivers to make optimum route 
selection and shorten travel time.
    ITS also helps to protect the environment by reducing the 
negative environmental impacts of congestion, crashes and 
emissions. It has been estimated that incident response and 
clearing programs save as much as 2,600 gallons of gas per 
major incident.
    In the future, the initial investment in ITS infrastructure 
and in-vehicle devices may be seen as the first wave of a 
technology revolution. In the second wave of the ITS technology 
revolution, we expect to see the integration of localized 
Intelligent Transportation Systems into larger and more 
integrated networks of information.
    Communications from vehicle to infrastructure and from 
infrastructure to vehicle will become richer. Both the quality 
and quantity of data transmission will increase. As a result of 
network integration, not only will we see greater efficiencies 
in America's transportation system, we will see a fundamental 
shift in how America does business.
    GPS and other vehicle-identifying technologies inherent in 
ITS are already enabling businesses to offer consumers 
location-specific goods and services. The advent of mobile 
commerce will be a part of the fundamental shift in how 
Americans do business through the use of ITS.
    We look forward to working with you to design a continuing 
ITS program that will fulfill the dreams of the American 
traveling public.
    Thank you.
    Senator Reid. Mr. Yermack, you say there are 8 million 
navigation units on vehicles? Is that right?
    Mr. Yermack. That's worldwide.
    Senator Reid. Worldwide.
    The last car I purchased, they tried to talk me into buying 
one of those. What in the world good would it do me to have 
that on a car?
    Mr. Yermack. I have, from my own experience, used them very 
often on rental cars. I find that in traveling to areas I'm not 
familiar with, it's a tremendous boon because what a navigation 
system will do is it will identify, when you put in where you 
are and where you're going, it will identify a route. It will 
display the route on the navigation system, and it will give 
you directions to the location, both verbally through speakers, 
as well as on the screen.
    I've also used it in areas that I'm familiar, and I find 
that simply having the map up on the screen as I travel makes 
it a lot easier to know where I'm going.
    Senator Reid. Now, you carry it with you wherever you go, 
so to speak? Rental cars don't have it on them when you get the 
rental car.
    Mr. Yermack. There are navigation systems available from 
some rental companies as an additional fee.
    Senator Reid. So you try to get that?
    Mr. Yermack. I always try to get that.
    Senator Reid. OK. That's very interesting. That helps me a 
lot. I didn't see the practicality of it, but I can see your 
explanation makes it quite clear.
    Your organization's membership includes many private 
companies. Which areas of ITS have the highest levels of 
private sector participation?
    Mr. Yermack. It's hard to answer the question as to which 
have the highest levels of participation. Members of ITS 
America are involved in the engineering and design of 
intelligent transportation systems for Government, for State 
Departments of Transportation, as well as for public transit 
agencies, as well as our members include the vehicle 
manufacturers--Ford, General Motors, Chrysler--so they're also 
involved in the deployment of in-vehicle equipment on their 
vehicles.
    Senator Reid. I have a couple of other questions I'll 
submit to you in writing. Would you mind getting back to us--
the subcommittee--with those answers?
    Mr. Yermack. It would be our pleasure. Thank you, sir.
    Senator Reid. I appreciate it.
    Mr. Tinklenberg, are there new technologies or other tools 
in the pipeline that will radically, in your opinion, improve 
the impact of ITS on managing traffic congestion?
    Mr. Tinklenberg. Mr. Chairman, there are a number of areas 
of technology development that hold potential. But we think 
that the emphasis that you have placed on deployment is an 
emphasis that has served the industry and the advancement of 
ITS very well in taking those things that we know work already 
and getting them out into the systems, and supporting a 
deployment effort of those things.
    In Minnesota, for example--maybe some of you have heard--
not too long ago, a shut-down of our entire ramp metering 
system, and we have an extensive ramp metering system in the 
Twin Cities. When we shut that down, we were able to test in a 
very comprehensive way what the benefits were of that system. 
We found the statistics that I mentioned in my testimony, that 
in terms of travel time, in terms of capacity, in terms of 
crashes, those things that already exist were working very well 
and making an incredible impact when integrated through a 
Traffic Management Center--that kind of technology. What we 
need to be doing is deploying it--things that we already have 
in place, getting them out into the system where they can have 
the kind of impact that we believe they could.
    Senator Reid. I have a view that when we do our next 
highway bill, as we refer to it, that we're going to have to do 
things different than we've ever done it in the past; have a 
different mix of moneys, incentives, because we are limited how 
much money we can spend building roads. But I'm concerned, and 
this is what I would like either you or Ms. Johnson to respond 
to this, I'm concerned that the directors of most State 
Departments of Transportation, so I'm told, are only concerned 
about highway dollars. You know, that's kind of a niche in the 
barrel of their gun--I should say, it wouldn't be in the 
barrel.
    Senator Warner. The stock.
    Senator Reid. Yes, stock. That's what I was trying to find, 
John. Thank you.
    As to how much money they can get for road construction--
how are we going to change the mind-set of some of the State 
Departments of Transportation to be involved in other things? 
If we do this right, it's going to cost money. It's not cheap 
to do what we want to do. But when highway departments want to 
spend more money on roads, how do we convince them that they 
could do better?
    Mr. Tinklenberg. Mr. Chairman, I think that's a very 
important discussion that's going on right now within the 
industry as a whole. We have been very involved with the U.S. 
Department of Transportation to look at operations, and I know 
you'll be looking more at that as you move toward 
reauthorization.
    But moving from the question of ``How is this project 
going?'' to ``How is the system operating?'' and ``How is it 
working for the public?''--I think that discussion is taking 
place as more and more people are seeing the clear benefits. 
Again, when it was just a research project, people were 
wondering what good does it really do for me in moving people 
in my State. But now we're seeing that it really does some 
important things, as we have seen in Minnesota in our ramp 
metering program and in our road/weather information systems, 
and as we're seeing as we're moving toward the deployment of 
511 and advance traveler information systems.
    I think as those experiences become more widely understood, 
people will begin to see how much capacity can be gained by 
these kind of investments and then are able to make good 
choices in comparison to other investments they might make.
    Clearly, a part of the solution is going to be 
infrastructure in terms of the traditional sense. But more and 
more, I think people are understanding that another part is 
going to be investments in the use of technology that can 
expand the capacity of our infrastructure without having to 
take more homes, without having to take more businesses, 
without having to pour more concrete.
    Senator Reid. So as I understand it, what you've said is 
ISTEA, we had money for research on Intelligent Transportation 
Systems. TEA-21, we implemented a few of them--not much money 
was spent on this--but a few dollars spent. What you're saying, 
with the few dollars we've spent in TEA-21, this may be an 
incentive for State Departments of Transportation to realize 
that they can do a lot better job in their States by having a 
mix of not only construction dollars for regular highway 
construction, put some of their construction money into these 
Intelligent Transportation Systems. Is that what you're saying?
    Mr. Tinklenberg. Absolutely, Mr. Chairman. I believe that 
we've demonstrated some of the practical benefit that can be 
gained by these kind of investments. I think that was a huge 
accomplishment of TEA-21. And now we have the basis on which to 
build from that into further deployment of these kind of 
technologies.
    Senator Reid. Do the other two witnesses have any comments 
in this regard?
    Ms. Johnson. I think from our observation there are two 
points of leverage that you should be considering in going into 
the next reauthorization. The first one is what I would call an 
information system or an ITS network, in the sense that 
underlying almost everything we do in ITS you've got to be able 
to know what is going on on the road or on the bus. While we 
have put pieces in place in many, many places across the United 
States, when you look at it as a network, we're only about 22 
percent instrumented.
    Getting a complete system that can tell you what is going 
on on the roadway or on the bus system, I think is essential to 
achieving the vision we all share.
    The second point of leverage would be institutions. ITS 
adds a mission that we have never had traditionally, and that 
is operating the system. We do not have institutions that bring 
the players together to execute that mission. So worrying about 
building an institution with a mission of operating the system, 
I think will be an important point of leverage.
    Mr. Yermack. Mr. Chairman, as late as the late 1990s, I 
continually heard the debate. We have all these computers, why 
do we still have so much paper? In fact, at that time we were 
at a stage of pre-network. The computers were not networked 
together in what we now know as the Internet. We haven't heard 
that question for the last 10 years about what are these 
computers doing for us. We know the instant access to 
information that it gets us and the communication that it gets 
us.
    I think we're at a similar stage with Intelligent 
Transportation Systems in the sense that we have many isolated 
examples of ITS systems that work and work very effectively. We 
don't really know. We don't have an experience of how effective 
they can be as they become inter-networked and when the 
operators begin to gather information not just on one city or 
one part of the city, but on entire regions and States and 
multi-State areas. It would have a dramatic impact on the 
operations of the system.
    Senator Reid. Thank you.
    Dr. Johnson, last year, the Federal Communications 
Commission approved 511 as a nationwide telephone number for 
traveler information. What's the department's timeframe for 
implementing this number?
    Ms. Johnson. The FCC has given us a timeframe which is 5 
years. They're going to review what we have done with this 
incredibly valuable resource.
    Senator Reid. Five years from when?
    Ms. Johnson. Excuse me?
    Senator Reid. When is the 5 years up?
    Ms. Johnson. My belief would be about 4 years from now. We 
have already had the first 511 telephone call, in the 
Cincinnati-Northern Kentucky metropolitan area. That will be 
followed by four more early deployment sites. We are providing 
grants to States to do the transition planning that is needed 
to kind of carve up the States in a way that allows them to 
work with the wireless community on routing calls and that type 
of thing.
    Right now, ITS America, APTA and AASHTO under the 
chairmanship of Mr. Tinklenberg are putting together a set of 
guidelines that will go out to States and localities on 
essentially how to do this. We look at this as a very popular 
service that will be demanded by the citizens.
    Senator Reid. Thank you very much.
    Senator Warner.
    Senator Warner. Mr. Chairman, you just brought up the key 
question. What can we do to incentivize more application of 
this technology? I've only got fragments of the story, but 
staff advises me that while we have put out under TEA-21 
certain amounts of money for these programs, the 
appropriators--somehow there's some earmarking going on and the 
projects don't exactly parallel the goals of ITS. Am I correct 
in that, Dr. Johnson?
    Ms. Johnson. In TEA-21, you laid out a set of criteria that 
were to be followed with this set of money.
    Senator Warner. That's correct. I've got them right here in 
front of me.
    Ms. Johnson. The primary purpose was for integration. It 
was essentially to serve as a bridge between a research 
program, and ultimately using Federal-aid funds to use ITS. 
Every dollar, and sometimes more, that was authorized has been 
earmarked. To date--and there's some question this year--but to 
date, we have been successful in working with each earmark in 
requiring them to meet the criteria set forth in TEA-21. While 
we think the program would have been substantially more 
effective in leveraging more deployment if it had not been 
earmarked, we believe that those projects that have been funded 
have achieved the goals of the authorized program.
    Senator Warner. Your answer is skillfully given, but 
clearly I think the chairman and I and others have some 
homework to do with our highly esteemed colleagues on another 
committee.
    But, I believe as we address--as the chairman pointed out--
the next item here, we've got to put in a stronger and more 
rigid set of incentives to help get this force multiplier out 
to the public. I hope that other segments of the highway 
industry--I mean, the builders are among the most responsible, 
really, in my State. I have a high personal regard for them. I 
just don't think they should view this as a threat to putting 
down more concrete and asphalt. I know members of the local 
governing bodies in my State, whether it's the cities or the 
counties, want to point to ``that's my road.'' But I think 
legislators can point with equal pride to ``that's my system'' 
and that road is now far more efficient than it was before we 
put in this system.
    So anyway, we've got to work on that.
    Mr. Yermack, a question--I have followed with great 
interest--and I don't doubt that Congress is going to look into 
this legitimate debate on cell phones, and whether or not it 
distracts. The chairman asked you about the navigation 
equipment. I think that's a first cousin to the cell phone 
issue, and we better be prepared to address it.
    But I'd like to also bring to your attention one other 
thing, and this applies to everybody here. I deal a great deal 
with senior citizens--I'm not too far distant from being one 
myself--but, you know, I'm still active, fully. But they talk 
about when they, for instance on the Dulles Highway, are rushed 
into these chutes to pay their tolls or to put their Smart Tag 
in, or to do other things. They've got a microsecond to make a 
decision which lane they go in. Sometimes it's not clear 
visually to help these folks, particularly strangers, get in. 
You hear the screech of wheels and brakes and everything as 
people suddenly realize they're trapped in the wrong lane. 
Let's help out a little bit in that system.
    Do you want to comment on the cell phone thing? Is that a 
first cousin? Do you want to say a few words on that?
    Mr. Yermack. I'd be happy to, sir. I think that the cell 
phone debate in many ways highlights an issue that we have been 
living with for a long time, and that is the issue of keeping 
drivers focused on their job and not having them distracted by 
other devices in the car. While the cell phone debate is the 
latest in the list of issues that provide distraction, I think 
really changing the station on a radio or being distracted by a 
baby in the backseat, or changing a CD can be equally 
distracting. I think finally we are now beginning to get a 
significant amount of research being done by the members of ITS 
America and by the automobile companies to determine what, in 
fact, are the effects of those devices on driver reflex.
    Senator Warner. OK. We've got to concentrate on that. You 
know, your passenger conversation, or all kinds of things that 
begin to build and add up. I think your area here is so key to 
greater utilization of our roadways that we've got to somehow 
meet, address and resolve that dispute in a very responsible 
way.
    Mr. Tinklenberg, first, AASHTO has just been of great value 
to this committee and those of us who have been active in 
highway legislation for years. You're fortunate to be 
associated with such a marvelous group of advisers. But do you 
have a comment on the incentives--what we might do, start 
working on?
    Mr. Tinklenberg. I think, Mr. Chairman, Senator, I think as 
Dr. Johnson indicated, that there are a number of things in 
terms of bringing the institutional support together to look at 
operational issues within an entire region. I'm sure our region 
is like many others in the country, that there are many 
governmental units operating different pieces of the system, 
and somehow bringing them together in a way that maximizes the 
opportunities on all of that is an important one.
    It's interesting, Mr. Chairman, you raised the issue of 511 
a moment ago. One of the side things that's happening with the 
development of 511 is that as the public begins to be more 
familiar with that system and use it more often, they're going 
to be expecting that that information will be available in 
their State and in their region. They're going to be asking why 
it isn't if it isn't. Part of our deployment is going to be 
driven by the public's expectation that good information be 
available.
    Senator Warner. You're right on target. I think the best 
leverage we can get is to get the general public to talk to 
their State legislators and a few others. But Mr. Chairman, I 
think to expedite things, I'll put the rest of my questions in, 
if I may, for the record.
    Senator Reid. I will do the same.
    Senator Warner. I thank the chair. This is an excellent 
hearing. I think you're achieving your goals.
    Senator Reid. Thank you, Senator Warner.
    This panel is excused. Thank you very much for your time 
and effort.
    Our first witness in the second panel is James Beall, San 
Francisco Bay Area Metropolitan Transportation Commission. Mr. 
Beall, as soon as they get a seat there for you.

 STATEMENT OF JAMES BEALL, JR., CHAIRMAN, SANTA CLARA BOARD OF 
SUPERVISORS, SAN FRANCISCO BAY AREA METROPOLITAN TRANSPORTATION 
                    COMMISSION, SAN JOSE, CA

    Mr. Beall. Good afternoon, Mr. Chairman. My name is Jim 
Beall, and I've been a commissioner for the Bay Area 
Metropolitan Transportation Commission for about 15 years, and 
currently am chairman of the Santa Clara County Board of 
Supervisors in San Jose.
    The Metropolitan Transportation Commission is the 
metropolitan planning organization for the nine-county Bay 
Area. We have 6.8 million people in our 9 counties and 100 
cities, and 7,000 square miles including San Francisco, San 
Jose and Oakland.
    I want to talk today about some of the things we're doing 
in our area. The first example I wanted to bring to your 
attention is in Santa Clara County--my county--we have a multi-
agency team led by the city of San Jose and the county, and 
we're working to coordinate the ``Smart Corridor'' along 
freeways, expressways, local streets, with public transit in a 
15-mile corridor. We're having fiber-optic cables carrying 
data, video images, traffic signals, cameras and computers into 
a single network, enabling our traffic managers to spot 
accidents, congestion, changed timing patterns, instantaneously 
alert drivers to problems, and dispatch emergency services.
    We have also in the Bay Area implemented fast-track 
electronic toll collection on all Bay Area toll bridges, and 
that's nine bridges, to let drivers pre-pay tolls without 
stopping, and they can use the same device in southern 
California toll roads 500 miles away.
    In the Bay Area, we have also installed roadway detectors 
and closed-circuit televisions to collect up-to-date minute 
data on what's happening on our roads. The Bay Area Traffic 
Management Center uses these high-tech tools to monitor traffic 
conditions and dispatch help as needed. We also use that for 
coordination of special events in the Bay Area.
    Some of the examples of results in the transit area include 
what we have now have instituted in the Bay Area a test. We're 
starting to implement the one car TransLink card. This is a 
smart card to pay their bus, train, ferry fare under a pilot 
program coordinated with 21 separate transit agencies, so one 
card for all 21 transit agencies in the Bay Area. The universal 
transit ticket stores the value and deducts the cost of a trip 
when the card is passed near a reader on board the vehicles or 
at fare gates.
    The Bay Area also, as you mentioned earlier, the Bay Area 
is also involved in--we have a single region-wide phone number 
for up-to-date traffic information on the freeways, as well as 
direct connections to all the public transit operators, ride 
sharing and other services. MTC is implementing the effort in 
the Bay Area to become the first region in California to offer 
this service through the national designated transit 
information number, the 511. So we're leading the charge on 
that.
    What are the results? Well, the California Department of 
Transportation estimates the travel time savings of over 25,000 
hours per year, and fuel savings of more than 55,000 gallons 
during the initial phase of the electronic toll collection 
system that is now in place on all nine Bay Area toll bridges. 
Each month in the Bay Area, 50,000 Bay Area residents call our 
TravInfo--the regional transportation information phone 
number--for traffic, public transit and travel information.
    A survey evaluating the service indicate that 45 percent of 
the callers change their travel behavior after receiving the 
information. Also, more than 10,000 Bay Area drivers per month 
use one of the 3,500 wireless telephone call boxes installed by 
MTC along the region's highways. The call boxes are a direct 
line to dispatchers who can then send the police, fire, 
paramedics, towing or other assistance.
    We have our roving tow trucks, the Freeway Service Patrol, 
that MTC operates, and this covers 400 miles of Bay Area 
freeways. We respond to 9,000 incidents per month. In addition, 
increasing the travelers' safety and reducing air pollution, 
the tow trucks cut congestion-related delay by 3.5 million 
hours and fuel consumption by 1.4 million gallons annually.
    Mr. Chairman, as you can see, we think that TEA-21 is 
working in the San Francisco Bay Area. It is important to note 
that our Bay Area ITS programs have been funded by the flexible 
features you have in TEA-21, and we encourage continued 
mainstreaming for such projects as a further commitment by the 
Federal Transportation Policy to better manage the 
transportation system we have.
    Our experience with the ITS confirms that we believe that 
the Federal initiative in sponsoring a national ITS program was 
a far-sighted move and will continue to pay positive dividends 
far into the future. We urge you to renew the national 
commitment.
    We have the attachment. We have the packet and the 
information, and I'd be happy to answer questions--along with 
my staff who has come with me, Melody Crody. She is the manager 
of our Transportation Coordination and Access Program at MTC.
    Thank you for your time, Senator.
    Senator Reid. Mr. Beall, if we accomplish nothing else 
today in listening to your statement it would have been worth 
the hearing, because it gives us as legislators the incentive 
to work more on this idea that started out as kind of an idea 
that Pat Moynihan had, and people kind of laughed at him when 
he first talked about it. I certainly wish Senator Moynihan 
were here to hear what you had to say, because it certainly to 
me indicates that we have made some progress and can make a lot 
more progress.
    Mr. Manning.

STATEMENT OF MARTIN MANNING, DIRECTOR, CLARK COUNTY DEPARTMENT 
                 OF PUBLIC WORKS, LAS VEGAS, NV

    Mr. Manning. Senator Reid, thank you very much for allowing 
me to be here today in front of your subcommittee.
    I am Marty Manning and I'm the president-elect of the 
American Public Works Association, as well as the Public Works 
Director for Clark County, NV.
    My comments are going to be about as brief as I can make 
them, and basically the things I'm here to talk about today is 
a little bit about----
    Senator Reid. You never have a bad speech if it's short, 
you know.
    Mr. Manning. Yes, sir.
    I'm going to talk a little bit about the American Public 
Works Association, and certainly the kinds of experiences that 
we've had with ITS in Clark County, which have been very 
positive.
    Our association, APWA, serves more than 26,000 members, and 
it is concerned with the operation, maintenance, renewal and 
improvement of the Nation's infrastructure by promoting 
professional excellent and public awareness through education, 
advocacy and the exchange of knowledge. We have a vital 
interest in the reauthorization of TEA-21, and in fact, we have 
a reauthorization task force currently in place that is working 
diligently to develop and promote some APWA recommendations for 
reauthorization.
    Additionally, APWA is teamed up with other organizations to 
comprise a local officials transportation working group, which 
is made up of organizations representing elected county and 
city officials, as well as development organizations, 
technology and city/county managers. APWA also serves as a 
member of the steering committee for the Federal Highway 
Administration's national dialogue on operations.
    We hope that you will look to APWA as a valuable resource 
as you and your staff members proceed through the 
reauthorization process. With so many unmet transportation 
funding needs, APWA believes that it is imperative to maintain 
the basic goals of TEA-21 by protecting the funding firewalls 
and allowing for as much local funding flexibility as it is 
possible to give.
    Further, as our members deal directly on a daily basis with 
system users, we have a strong understanding of how it is to 
best address some of our local problems in transportation 
issues within our communities. The deployment of ITS tools, in 
conjunction with the construction of needed improvements, would 
assure that existing transportation infrastructure may operate 
at higher capacity and that new improvements would also operate 
more efficiently, and also to be more economical to build.
    As you know, Clark County is one of the most rapidly 
growing areas in the Nation. We've come to expect new residents 
at a rate of 3-5,000 a month, and we also expect to welcome the 
arrival of as many as 35 million visitors this year to the Las 
Vegas destination resort areas.
    This continuing growth puts a lot of pressure on our 
transportation systems--our networks of highways, streets and 
roads. In Clark County, NV, we're becoming true advocates of 
the management tool products that ITS offers, and the capacity 
and safety benefits that they represent to us. Existing 
intelligent transportation systems are being improved and 
integrated with new system tools that are now being installed. 
The installation of ITS products in the urbanized Las Vegas 
Valley has only been possible--and this is important to us--by 
the creation of hard, real, meaningful partnerships among 
Federal, State, local governments, as well as our private 
sector partners.
    As an example, the Las Vegas-Area Computer Traffic System 
provides computerized traffic signal control in all of the 
jurisdictions in the Las Vegas Valley. The system is operating 
under an agreement among the Nevada Department of 
Transportation, our Southern Nevada Regional Transportation 
Commission. Our three incorporated cities in the county provide 
substantial travel time improvements through a growing 
urbanized area with a population approaching 1.4 million 
people. It also has provided some significant real benefits in 
air quality.
    While our system was originally installed with a Federal 
grant and NDOT assistance, the incorporated cities in the 
country pay for its continued operation and maintenance. The 
Las Vegas-Area Computer Traffic System was an initial step into 
ITS for us, but recently, further steps are now underway. 
Additional improvements to the system have been added which 
provide new computer hardware and software, high-speed 
telecommunications facilities between our traffic signals and 
our computers, television observation at critical 
intersections, and high-tech local traffic signal controllers.
    In addition, the Nevada Department of Transportation is 
proceeding on additional ITS projects to create a highway 
management system that will provide the functions of traffic 
control, incident management and route and pre-trip traveler 
information, and a user service for archived data. The highway 
management system is called FAST and it will be integrated with 
the arterial management system under the Las Vegas-Area 
Computer Traffic System, and they will both be located at a 
common location that is going to be shared with the Nevada 
Highway Patrol's dispatching center.
    So we're bringing the pieces together to make a management 
system. Each system will operate with a common staff and an 
operating agreement among, again, NDOT, the Regional 
Transportation Commission, our three cities and the county.
    Construction of this, the initial phase of the FAST highway 
management system is going to begin before the end of this 
year, and it will be completed in 2 years. The construction 
will encompass the installation of ramp meters at selected 
locations, as well as high-occupancy vehicle bypass ramps, 
arrangements with the Nevada Highway Department to make sure 
that traffic enforcement secures those things, a dynamic 
message signage at selected locations to provide road 
information and incident information to motorists, and the 
construction of an arterial and highway management operations 
center which will bring all of those agencies together. Upon 
completion of the project, the Las Vegas urban area will be 
well on the way to the creation of an integrated arterial and 
highway management system.
    As a county public works director, I can appreciate the 
value that ITS brings to us. The management tools and 
technologies we've already installed and the potential values 
in the extension of this management system will provide real 
system improvements in our area.
    In conclusion, we recommend the continued support of the 
ITS program, and certainly the recognition of its value in 
identifying and developing transportation system management 
technologies that we think are needed to improve the capacity 
and efficiency of the Nation's highways, our roads and our 
streets. In addition, we recommend that the overall goals of 
promoting safety, efficiency and economy and enhancing 
mobility, providing accessibility to transportation, as well as 
improving the productivity of travel, the safeguarding of the 
environment and reducing energy consumption certainly are a 
very solid basis for the development of the ITS program of the 
future.
    That concludes my remarks, but I have a couple of other 
things to say, Senator Reid.
    Senator Reid. We'll have to have you say that a little 
later, OK?
    Mr. Albert, it's your time to testify. Do you teach at the 
University of Montana?
    Mr. Albert. I teach, but I direct a research center there.
    Senator Reid. But also part of your duties are teaching?
    Mr. Albert. Correct.
    Senator Reid. I was reading your resume, and I couldn't 
determine that. I saw you were associated with Montana State, 
but I didn't know if you taught also.
    Please proceed.

  STATEMENT OF STEVE ALBERT, DIRECTOR, WESTERN TRANSPORTATION 
                     INSTITUTE, BOZEMAN, MT

    Mr. Albert. Good afternoon, Chairman Reid.
    I'd like to begin by thanking you for this opportunity to 
share our views and perspectives on Intelligent Transportation 
Systems, and specifically rural ITS, which is quite often 
overlooked.
    My name is Steve Albert. I'm the director of the Western 
Transportation Institute at Montana State University. WTI's 
mission is to make rural travel and transportation safer, more 
convenient and more accessible. WTI is the Nation's leading 
research center focusing on rural transportation issues, with 
projects in over 30 States, 10 national parks, and WTI was 
recognized by ITS America for outstanding achievement in rural 
ITS.
    In addition to serving as WTI's director, I also serve as 
the Rocky Mountain ITS America Chapter president and various 
National Academy of Sciences positions.
    My testimony today was developed in partnership with 
constituents from around the country, not just from one 
organization, and I will address the following three areas: the 
magnitude and severity of rural transportation challenges, 
specific examples and benefits of ITS deployment, and future 
focus areas where additional emphasis and resources should be 
placed.
    For the last 10 years, rural constituents have heard our 
transportation leaders highlight congestion as our Nation's 
leading challenge. Programs such as Operation Timesaver, Model 
Deployment Initiative and other urban initiatives have been the 
showcase of administrations. However, these showcase programs 
have little, if any, application to approximately 80 percent of 
our Nation's roadways, or roughly 4 million miles. Unlike urban 
areas that have congestion as a primary single issue, rural 
needs are move diverse, complex and only tangentially related 
to congestion.
    So what are some of those rural statistics? Sixty percent 
of the fatal crashes happen in rural America. Crash rates are 
2.5 times greater in rural America. Local roads are three times 
less safe than our Interstate system. Limited communication 
coverage, specifically wireless, causes notification to be 
twice as great as urban areas. Weather is a deadly factor in 
rural America. Tourism is our economic engine. National parks, 
which get 266 million visitors a year, are expected to increase 
by 500 percent over the next 40 years. Native Americans die at 
six times the national average in motor vehicle crashes. 
Animal-vehicle collisions, which are about 726,000 each year, 
cost $2,000 each, or about $1 billion being wasted in annual 
expenditures. Thirty-eight percent of our rural population has 
no transit service.
    While these statistics do paint a picture, there are some 
success stories in rural ITS, and I'd like to go through a 
couple of those examples. To prevent crashes, the Colorado 
Department of Transportation has implemented a downhill speed 
advisory system that advises truckers outside the I-70 
Eisenhower Tunnel outside Denver of the appropriate speed they 
should be going based on axle configurations, speed and weight. 
It has reduced travel speeds of trucks by 20 miles an hour and 
eliminated fatalities the last 3 years. California DOT has a 
similar system.
    To respond to emergency services, the Virginia Department 
of Transportation has used hand-held portable digital 
assistance to transfer patient care information between 
ambulance drivers and the doctors so that we can do a better 
job of responding to patient care.
    To enhance travel and tourism, Yellowstone National Park is 
implementing a Smart Pass system similar to what you heard 
today in San Francisco, that will allow for frequent users to 
have a transponder on their vehicle and be enter and bypass 
gate congestion.
    Surface transportation and weather--what are we doing? 
Through the Greater Yellowstone Travel and Weather Information 
System, North Dakota, South Dakota, Montana and Minnesota are 
implementing one system that will allow travelers to call in 
and hit pound-safe on their cellular phone and get weather 
information on the road that they're on 60 miles in advance, or 
1 to 1\1/2\ hours that will give them specific information 
about what they're about to encounter.
    So what are some of the future needs, even though we have 
some success stories? One of the things that we are beginning 
to realize in rural America and that needs to be spread around 
the country is that the highest use is not necessarily the 
highest need.
    Some of the things that we see that are really a need is to 
conduct additional outreach, to have rural stakeholders 
understand what does ITS mean to them; what are the benefits; 
integrate funding across Federal and State agencies. Rural 
transportation is really much more than just transportation. 
What we commonly find is that Federal and State agencies are 
stovepiped. Health and Human Services only look at their 
issues. DOTs only look at their issues. But when you look at 
transportation, it goes across those agencies. A blue ribbon 
committee needs to be looked at to address how do we create a 
one-stop shopping for rural transportation.
    Improved communication coverage--response times are twice 
as great in rural areas. We need to have better cellular 
communication and some basic level of detection on our 
roadways. Develop projects that are more multi-State in nature. 
Travelers do not care about jurisdictional boundaries. What 
they want is information on multi-State opportunities. Create a 
rural model deployment initiative that while similar to the 
metropolitan initiative, but make it on multi-State basis; 
identify tourism opportunities, given that tourism means jobs 
in rural America. It's the economic engine. Work closer with 
tourism organizations.
    In closing, while there are isolated success stories that 
can be highlighted, there are still many challenges yet to be 
addressed. In keeping with the rural spirit, the subcommittee 
and the U.S. Department of Transportation have the opportunity 
to become pioneers in making a renewed commitment to rural ITS. 
As we like to say in the West, our forefathers are pioneers, 
not settlers.
    Senator Reid. Mr. Albert, the point is that the people that 
are injured and killed on rural highways are not necessarily 
people who live in rural America.
    Mr. Albert. That's correct, especially when you look at 
truckers.
    Senator Reid. I think that's a point we have to make. So 
improving the Intelligent Transportation Systems in rural 
America helps us all, not just those who live in rural America.
    You had something more you wanted to say, Martin?
    Mr. Manning. I just had some observations, Senator Reid, 
and that is that we wanted to be able to express our 
appreciation for the direct help that you've provided us for 
our Smart Bus program.
    Senator Reid. Don't be spreading all that stuff around 
here, you know, all the stuff I've----
    Mr. Manning. In addition Senator, you'll be happy to know 
that the bus rapid transit demonstration now has five CIVUS 
buses under order.
    Senator Reid. You see, what you need to do is tell 
everybody that's at home, but not back here.
    Mr. Manning. OK.
    Senator Reid. I'm only kidding.
    [Laughter.]
    Mr. Manning. These are really kind of wonderful because it 
gives us an opportunity to have transit vehicles that have a 
very good chance with some preemption of signals of being able 
to go down an advanced guidance system and to be able to 
preempt signals and actually deliver people to the places that 
they want to go before vehicular traffic does. They have the 
capacity of carrying as many as 178 people.
    Then finally, I wanted to thank you personally for the very 
successful transportation summit that you sponsored. We 
appreciated very much the opportunity of joining with other 
officials to be able to address the question of transportation 
needs and priorities in the Silver State. We appreciate the 
leadership that you really demonstrated in putting that 
together.
    Senator Reid. We have all that it takes to be a poster 
person, community for problems that develop with mass--I 
shouldn't say ``mass''--with rapid growth. We've had so much 
growth there, and Clark County's done a remarkable job paying 
money without any Federal help doing a lot of roadbuilding on 
their own. So I think it's the least the Federal Government can 
do is to try to help with some new innovations for rapidly 
growing Clark County.
    So thank you very much for representing your association, 
but also representing Clark County here today.
    Mr. Beall, you've painted a good picture, as I've said, but 
where do you go from where we now are? What's next?
    Mr. Beall. Well, I think, like you said earlier, we're in 
a----
    Senator Reid. I also want to say this, you're the first 
elected official we've had here today. You're elected to the 
position you hold.
    Mr. Beall. Twenty years now.
    Senator Reid. So we're proud that you're doing such a good 
job as an elected official, and they had the confidence to send 
you here to represent this important entity that you represent.
    Mr. Beall. Well, the one thing I wanted to respond to you 
by is, we have to get in the operational phase now. There has 
been a lot of challenges in terms of development, and now we're 
getting into operational. So that's what we're doing right now.
    I wanted to add also regarding fast-growing areas, the 
Silicon Valley had been growing fast and it still is, really, 
in terms of the traffic congestion and the traffic. Despite 
what people see in the economy, we're still growing. This kind 
of stuff is quick. It gets done fast and it responds to that 
fast-growing economy. So one of the aspects of the Intelligent 
Transportation System programs is you can do it quick. You can 
get some if the stuff done quickly and it can expand your 
traffic system's capacity to respond to those quick-growing 
economies that are out there in our country. I think that's 
something to consider when you look at this at a national 
level. That was very important to us. It really saved us in a 
lot of areas.
    Senator Reid. I have to be at the Senate floor by 5 
o'clock, but here's a question that I have. There has been 
testimony, and others have talked about the fact that ITS 
deployment funds since 1998 when we started the program, 
really, have been earmarked by Appropriations Committee, rather 
than giving discretion to the Department of Transportation. Do 
any of you have any problems with any of these earmarks? Have 
they caused any problems or have they delayed or impaired 
deployment of other Intelligent Transportation Systems that any 
of the three of you are aware of?
    Mr. Beall. I don't believe we've had an earmark.
    Senator Reid. OK. You know of no reason the earmarks have 
interfered with any of the work you're doing?
    Mr. Beall. No, sir.
    Mr. Albert. Senator Reid.
    Senator Reid. Yes?
    Mr. Albert. I've been a receiver of those earmarks, so let 
me try to respond. Many of the earmarks that we have gotten 
either in working with Senator Burns or Senator Baucus have 
been to deploy solutions in rural America. It hasn't, from a 
University standpoint, it hasn't been just to produce reports. 
About 70 percent of the funds that we have actually secured 
have gone to putting something in the ground, whether those be 
electronic kiosks and rest areas or an AVI system in 
Yellowstone National Park, or traveler information.
    But the reason that we have been doing earmarks is because 
there was no rural funding. We could not get it, so that we had 
to use political constituents. I don't know what percent of 
those earmarks were actually rural.
    Senator Reid. Well, I want to express my appreciation for 
the committee for your testimony here today. I am anxious to 
put together the bill next week. In fact, I'm meeting with 
Senator Moynihan this Friday to get his views. He has done so 
much for transportation in this country, and get his views as 
to what we should do. I'm happy to be able to report to him on 
what has transpired at this hearing.
    This hearing stands in adjournment.
    [Whereupon, at 4:47 p.m. the hearing was adjourned.]

    [Additional statements submitted for the record follow:]

  Statement of Christine Johnson, Director, Intelligent Transporation 
                      Systems Joint Program Office

    Mr. Chairman, Members of the Subcommittee, thank you for the 
opportunity to appear before you today to discuss some of the 
challenges that face our Nation's transportation system and the role of 
Intelligent Transportation Systems (ITS) in meeting these challenges.
    As Secretary Mineta has said, transportation is key to our Nation's 
well-being, whether measured as economic growth, as international 
competitiveness, or as quality of life. On the whole, our system of 
highways and bridges works well in maintaining the strong economic 
performance of the country, and a recent Federal Highway Administration 
(FHWA) survey of surface transportation customers shows increasing 
levels of satisfaction with the physical condition of our 
infrastructure.
    However, the same survey shows traffic congestion and highway 
safety are growing concerns for the traveling public. The survey also 
reveals that the public is reluctant to turn to capacity expansion as a 
first alternative to alleviate congestion because of the costs in 
taxes, environmental impacts, and space. Survey respondents favored 
solutions that minimize delays associated with roadwork and make our 
existing system function better--operational solutions, many of which 
are underpinned by ITS infrastructure. Through application of modern 
information technology and communications, ITS can improve the quality, 
safety, and effective capacity of our existing infrastructure. While 
good operation does not replace construction, it can certainly enhance 
it.
                        ITS PROGRAM UNDER TEA-21

    With the passage of the Transportation Equity Act for the 21st 
Century (TEA-21), Congress reaffirmed the role of the U.S. Department 
of Transportation (DOT) in development and integrated deployment of ITS 
technologies. Authorization of $1.3 billion through Fiscal Year 2003 
has made possible significant advances in the ITS program, and I would 
like to highlight some of the accomplishments.
    The ITS Program under TEA-21 has four primary features: (1) 
research and development funding providing for significant research; 
(2) incentive grants to States and cities to foster integrated ITS 
deployment; (3) a requirement that all ITS projects carried out using 
Federal-aid highway trust funds use nationally established ITS 
standards and be consistent with a national architecture; and finally, 
(4) in an attempt to ``mainstream'' ITS into regular transportation 
investments, TEA-21 makes clear that many categories of Federal-aid 
highway funds can be used for the purchase and operation of ITS 
technology. In my testimony today, I would like to provide a status 
report on each of these areas.

ITS Research and Development
    Let me begin by discussing our research and development efforts. 
TEA-21 authorized a total of $603 million in ITS research and 
development funds for fiscal years 1998-2003. For fiscal years 1998-
2001, after specific statutory reductions, $342 million have been made 
available in approximately the following proportions:
    60 percent for research and field tests; 14 percent for development 
of standards and maintenance of the National Architecture; 9 percent 
for training and technical assistance to States, local governments, and 
transit properties; 7 percent for evaluation; and 10 percent to provide 
technical support for the administration of the program.
    These resources have been used to advance the state-of-the-art in 
ITS through research and development, demonstrate new technologies 
through operational tests, promote integration through the National ITS 
Architecture and ITS Standards, and foster deployment by providing 
technical assistance and training to State and local governments.
    ITS research and development is a very complex program that is 
roughly equivalent in size to FHWA's Surface Transportation Research 
Program. I would like to highlight some of the major initiatives that 
are underway in the ITS research and development program as a result of 
TEA-21.

            Intelligent Vehicle Initiative (IVI)
    The IVI is focused on reducing motor vehicle crashes by enhancing 
driver performance through technology while, at the same time, 
mitigating the distracting impacts that the introduction of vehicle-
based technology can have on the driver. This is a multi-modal effort 
within the Department, carried out by the Federal Transit 
Administration (FTA) on transit buses, by the Federal Motor Carrier 
Safety Administration (FMCSA) which has the lead and works with the 
National Highway Traffic Safety Administration (NHTSA) on trucks and 
motor coaches, and in FHWA on specialty vehicles like snow plows. The 
majority of the program, however, is focused on passenger vehicles and 
is carried out primarily by NHTSA. Our research indicates that, when 
fully deployed, approximately 1.1 million or about 17 percent of all 
passenger vehicle crashes could be prevented using three of the simpler 
warning systems--rear-end collision, road departure, and lane collision 
warning systems. This would represent a savings of about $20 billion in 
annual economic costs due to automobile crashes. In order to seek a 
full range of views on IVI program priorities and directions from major 
stakeholders and the scientific community, we have asked a panel of 
experts from the National Academy of Sciences to provide periodic 
guidance and assessment of the work underway.
    Early IVI research has already contributed to the emergence of a 
number of vehicle-based safety systems that are available in the U.S. 
market today, including rear-end collision and rollover warning for 
heavy trucks, night vision systems for passenger cars, and adaptive 
cruise control and lane departure warning for both cars and heavy 
trucks. However, recognizing that these technologies, in combination 
with other in-vehicle devices, can have a distracting influence on the 
driver, decreasing safety rather than improving it, we are also 
conducting research on driver distraction, independently and in 
cooperation with automobile manufacturers and others. In addition, we 
are advancing concepts which enhance communication between the vehicle 
and roadway infrastructure to address problem areas such as 
intersection and run-off-the-road crashes.

            Intelligent Infrastructure
    Metropolitan and Rural Operational Test Program. Under the 
Intermodal Surface Transportation Efficiency Act of 1991 (ISTEA), the 
ITS program funded over 80 operational tests that demonstrated the 
effectiveness of numerous advanced traffic management technologies that 
have become a part of the deployment program. Through focusing 
resources on a priority set of field operational tests under TEA-21, we 
are greatly widening the original vision of ITS. For example, we are 
working closely with:
    The Department of the Interior, to examine the potential of ITS for 
reducing congestion in National Parks; Police, fire and emergency 
medical service (EMS) communities, to implement use of ITS for quicker 
identification of crashes and improved coordination of the emergency 
response; The National Weather Service, to obtain better surface 
weather information for winter maintenance and to better inform 
travelers during major weather evacuations; Highway agencies interested 
in applying variable speed limits within work zones as a way to 
increase the safety and reduce overall delays in construction areas; 
and Local communities, to examine ways ITS can be used to improve the 
safety of pedestrians.
    Commercial Vehicle Operations. The goal of this program is to 
improve the safety and productivity of commercial vehicle operations by 
using electronic clearance of trucks through weigh stations, using e-
government technology to streamline the credentialing process and, most 
importantly, by making carrier safety information available to 
inspectors at the roadside.
    The program also has great potential for streamlining border 
crossings. Work is underway in more than 40 States to plan, design, and 
implement these technologies. Complete systems are in place in four 
States, with three more States scheduled for completion by the end of 
this year.
    Support for Deployment. Deploying ITS at the State and local levels 
requires a change in transportation culture and the development of new 
skills among the staff. It requires a shift in thinking, from primarily 
construction and rehabilitation of infrastructure, to active management 
of the transportation system to assure smooth operation and maximum 
safety. It requires a broadening of the traditional civil engineering 
skill base to include systems engineering, computer science, and 
electrical engineering. To meet these challenges, we have implemented 
an aggressive training and workshop program for Federal, State, and 
local transit, public safety, and highway officials. Topics being 
addressed range from architecture and systems engineering, to 
communications design and software procurement. We currently offer over 
25 training courses in various aspects of ITS planning, development, 
deployment, and operations. Our course on the National ITS Architecture 
has been provided to over 2,600 Federal, State, and local officials and 
consultants. In addition, we have also provided extensive technical 
assistance to States and local governments through our field and 
headquarters staff, and through a peer-to-peer technical assistance 
program. One of the most effective programs involves ITS scanning tours 
for local officials which allow them to see ITS deployments and talk 
directly to other officials on why the decision was made to deploy ITS.
    Intelligent Railroad Systems. The Federal Railroad Administration 
(FRA) and the FTA are working together on the development of 
Intelligent Railroad Systems, a subset of ITS. Intelligent Railroad 
Systems will incorporate new sensor, computer, and digital 
communications technologies into train control, braking systems, grade 
crossings, and defect detection, and into planning and scheduling 
systems as well, and will apply to freight, intercity passenger, and 
commuter railroads. Work has begun on the development of the 
architecture for Intelligent Railroad Systems.

ITS Deployment Incentives Program
    The second major provision for ITS in TEA-21 is the Deployment 
Incentives Program. TEA-21 provided $679 million in Deployment 
Incentives funds. These funds serve as a bridge between the research 
program and, ultimately, the mainstreaming of ITS. A particular focus 
was integrating legacy, or pre-existing, systems. The belief was that, 
while the States could purchase hardware with non-ITS Federal-aid 
highway funds, a Federal incentive was needed to encourage them to go 
the ``extra mile'' in making systems talk to one another. An additional 
objective of the program is to advance the deployment of the Commercial 
Vehicle Information Systems and Network (CVISN). In fact, Congress set 
a goal to have a majority of the States deploy CVISN by September 30, 
2003.
    The ITS Deployment Incentives Program has been fully earmarked by 
the Appropriations Committees each year since 1998. These earmarks have 
directed the funds to specific State and local jurisdictions, but have 
also specifically required that the funds be used in accordance with 
the provisions contained in TEA-21. As the attached chart reveals, the 
number of projects relative to available dollars has been steadily 
increasing. While the Department believes that the program would be 
most effective if the funds were competitively awarded, we have worked 
closely with the recipients to ensure that the funds are being used to 
advance the goals of TEA-21. However, because of the earmarking, it is 
doubtful that we will meet the congressional goal of CVISN in a 
majority of the States by the end of 2003.
    A mid-term assessment of the Deployment Incentives Program 
conducted by the Department in 2000 showed that this program was 
fostering deployment and integration across almost all of the key 
elements of ITS infrastructure.

National ITS Architecture and Standards
            Architecture Conformity
    The third focus of the ITS program in TEA-21 is on the National ITS 
Architecture and Standards. TEA-21 included a provision that all ITS 
projects funded out of the Highway Trust Fund had to conform with the 
National Architecture. The goal was to foster integration and 
interoperability.
    We have worked closely with our State and local partners to develop 
an approach for implementing this requirement that would give States 
and metropolitan areas freedom to develop their own architectures, that 
fit their unique needs, but with key elements compatible with the 
National Architecture. By taking this approach--that ``one size does 
not fit all''--we have received broad support from the transportation 
community on the National Architecture requirement.
    We are now in the process of rolling out an aggressive program of 
training, workshops, and direct technical assistance to highway, 
transit, and public safety agencies to help them develop architectures. 
In addition, there are comprehensive workshops for States to develop 
their own CVISN architecture based on the National Architecture and 
Standards. To date, approximately 100 State, regional, or project 
architectures are underway and 34 States have completed CVISN 
architecture.

    Thirteen regions have completed architectures.
            Standards
    TEA-21 calls on the Department to develop and implement standards 
on a very aggressive schedule. It then requires recipients of funds to 
use these standards when purchasing ITS technology.
    We have partnered with industry standards-setting groups for 
development of more than 80 standards. The Secretary of Transportation 
has identified 18 ITS standards to be critical to national 
interoperability. To date, nearly 55 standards have been completed and 
all but two of the standards that are critical for national 
interoperability have been completed. Work is also progressing on the 
development of ITS standards at highway-rail intersections.
    We are now shifting our attention to the implementation of these 
standards. Working with State and local governments we are testing the 
standards, using the ITS Deployment Incentives program to provide early 
field demonstrations of the standards, and working through our field 
staff to provide training and technical assistance in the procurement 
and use of the standards. We believe this is a critical step before we 
officially adopt these standards, in order to insure that they are 
robust and well accepted by users.

Mainstreaming
    The last ITS element in TEA-21 that I would like to address is 
``mainstreaming'' and, in doing so, answer a few questions that I know 
surround the program. Why isn't ITS deployment more visible? Is it 
working? Why don't we see more of it? And, can't we do better than 
overhead message signs that say ``Congestion Ahead''?
    TEA-21 clarified that non-ITS Federal-aid highway funding sources 
(National Highway System (NHS), Surface Transportation Program (STP), 
Congestion Mitigation and Air Quality Program (CMAQ)) could be used to 
purchase and operate ITS infrastructure. As we look across the United 
States, we see many encouraging signs that ITS Deployment is happening: 
More than 40 States are planning, designing, or deploying a part of 
CVISN; 55 of our 75 largest metropolitan areas have begun significant 
deployment of ITS; nearly 70 percent of all toll facilities use 
electronic toll collection; more than 50 traffic control centers are in 
operation and many more are planned; more than 31 percent of fixed-
route buses in our larger metropolitan areas are equipped with 
automatic vehicle location technologies; and more than one million 
vehicles are equipped with automatic crash notification. More than 700 
traveler information websites have been created (over 500 exclusively 
transit sites, nearly 200 exclusively traffic sites, and several 
multimodal sites); and now, with the allocation of the 511 telephone 
number, traveler information will soon be a telephone call away. The 
first 511 call took place in the Cincinnati/Northern Kentucky 
metropolitan area in June of this year, and work is underway to 
implement 511 in Virginia, Arizona, California, Nebraska, Minnesota, 
and Utah.
    These deployments are making a difference in reducing crashes, 
managing congestion, and improving the quality of life in communities. 
For example:
    A study in Virginia illustrated that if ITS had NOT been deployed 
on I-66, congestion would have been 25 percent worse!
    The Ramp Metering Test in Minneapolis demonstrated that ramp 
metering improved freeway travel time 22 percent, reduced crashes 24 
percent, and improved freeway throughput 14 percent.
    Automated Vehicle Location (AVL) reduced paratransit expenses in 
San Jose, California, from $4.88 to $3.72 per passenger.
    Evaluations of adaptive traffic signal control systems have 
demonstrated reduction in delays of 14 percent to 44 percent, and a 
similar reduction in stops of 10 percent to 41 percent.
    Studies in 3 cities (Los Angeles, Rochester, and Phoenix) showed 
that pedestrian detection devices that automatically activate traffic 
and crosswalk signals at intersections reduced pedestrian and vehicle 
safety conflicts by 40 percent for some types of conflicts to as much 
as 89 percent for certain others.
    In a study of 40,000 inspections, safety inspectors increased the 
number of unsafe commercial drivers and vehicles removed from the 
highway from 8,000 to 12,000 by using advanced safety information 
systems instead of traditional methods.
    Further, as President Bush's energy policy recognizes, in reducing 
congestion ITS is a valuable strategy for fuel conservation.
    Every year we catalog results of the studies on ITS deployment in 
an annual report on ITS benefits.
    While we are encouraged by these examples of deployment, and the 
benefits they have demonstrated, there are very few places where a 
complete metropolitan system could be considered to be in place, let 
alone a Statewide or National system. One recent estimate suggested 
that over the last decade we have moved from about 6 percent of our 
major metropolitan systems being instrumented to about 22 percent 
today. Not bad, but a long way from complete! Hence, we still face 
``Congestion Ahead'' signs, as opposed to signs that give us detailed 
information on travel times and alternate routes--as they do in Paris.
    Although ITS solutions are eligible for most Federal-aid funding 
categories, these projects are competing with traditional construction 
needs for the available funds. This may negate the effectiveness of the 
TEA-21 provisions making non-ITS funds available and may be slowing 
deployment. FHWA is conducting interviews and surveys to determine if 
this is a valid assessment.
    Our experience suggests that some of the issues may be deeper than 
money. The institutions that we have today, particularly at the State 
level, were organized around constructing projects or enforcing the 
law. Those missions are quite different from the mission of managing or 
operating a road system to a particular performance level. 
Historically, adding capacity was the solution to congestion issues. 
Today, however, we need to focus more broadly on how to improve safety, 
productivity, and the operations of the specific highway and of the 
transportation system through ITS techniques.
    For example, we have begun to realize that no institution ``owns'' 
the congestion or safety problem at the local level or State level, and 
no institution has the right players around the table such that they 
could be accountable for the daily performance of the system. The 
exception is the rare occasion when a major special event, such as the 
Olympic Games, comes to town. Except for those special events, no 
institution has enough of a stake in the performance of the system on a 
daily basis to insist on developing the electronic network that would 
enable the effective operation of the system.
    And so, deployment is occurring at the margins, as budgets or 
earmarks permit, or major special events demand.

                             THE ROAD AHEAD

    In many ways, the nationwide deployment of ITS mirrors the creation 
of the Interstate System, both in its potential for profoundly changing 
the delivery of transportation in the United States and in the 
magnitude of the challenge in getting it accomplished.
    If we are going to move from spots of deployment to a full 
``electronic'' national system of smart vehicles and smart roadways for 
safety, savings, and productivity, it will require the same type of 
programmatic commitment and institution building that we undertook for 
the Interstate system in the 1960's and 1970's. It will require us to 
do more than try to fit ITS into existing funding mechanisms, Federal 
regulations, and a transportation culture that has been created around 
a construction mission. It will require us to step back and think as 
boldly and as creatively as our predecessors did when they created the 
blueprint for the Interstate System.
    As we begin to look toward the reauthorization of the surface 
transportation program, it will be important to consider what needs to 
be done to create an environment where we have the funding, 
institutions, and policies that will support the achievement of this 
vision.
    In closing, thank you again for this opportunity to describe the 
status of the ITS program. I would be pleased to respond to any 
questions you might have.

                                  CHART
                         ITS Deployment Program
------------------------------------------------------------------------
                                                             Funding
                                                          Available (In
             Fiscal Year               No. of Projects     millions of
                                                            dollars)
------------------------------------------------------------------------
1998................................                44              83.9
1999................................                71              92.7
2000................................                79              98.4
2001................................                96             103.5
------------------------------------------------------------------------

      
    [GRAPHIC] [TIFF OMITTED] T0652.012
    
    [GRAPHIC] [TIFF OMITTED] T0652.013
    
    [GRAPHIC] [TIFF OMITTED] T0652.014
    
    [GRAPHIC] [TIFF OMITTED] T0652.015
    
    [GRAPHIC] [TIFF OMITTED] T0652.016
    
    [GRAPHIC] [TIFF OMITTED] T0652.017
    
    [GRAPHIC] [TIFF OMITTED] T0652.018
    
    [GRAPHIC] [TIFF OMITTED] T0652.019
    
    [GRAPHIC] [TIFF OMITTED] T0652.020
    
    [GRAPHIC] [TIFF OMITTED] T0652.021
    
    [GRAPHIC] [TIFF OMITTED] T0652.022
    
    [GRAPHIC] [TIFF OMITTED] T0652.023
    
    [GRAPHIC] [TIFF OMITTED] T0652.024
    
    [GRAPHIC] [TIFF OMITTED] T0652.025
    
    [GRAPHIC] [TIFF OMITTED] T0652.026
    
    [GRAPHIC] [TIFF OMITTED] T0652.027
    
    [GRAPHIC] [TIFF OMITTED] T0652.028
    
    [GRAPHIC] [TIFF OMITTED] T0652.029
    
    [GRAPHIC] [TIFF OMITTED] T0652.030
    
    [GRAPHIC] [TIFF OMITTED] T0652.031
    
    [GRAPHIC] [TIFF OMITTED] T0652.032
    
    [GRAPHIC] [TIFF OMITTED] T0652.033
    
    [GRAPHIC] [TIFF OMITTED] T0652.034
    
    [GRAPHIC] [TIFF OMITTED] T0652.035
    
    [GRAPHIC] [TIFF OMITTED] T0652.036
    
    [GRAPHIC] [TIFF OMITTED] T0652.037
    
    [GRAPHIC] [TIFF OMITTED] T0652.038
    
    [GRAPHIC] [TIFF OMITTED] T0652.039
    
    [GRAPHIC] [TIFF OMITTED] T0652.040
    
    [GRAPHIC] [TIFF OMITTED] T0652.041
    
    [GRAPHIC] [TIFF OMITTED] T0652.042
    
    [GRAPHIC] [TIFF OMITTED] T0652.043
    
    [GRAPHIC] [TIFF OMITTED] T0652.044
    
    [GRAPHIC] [TIFF OMITTED] T0652.045
    
    [GRAPHIC] [TIFF OMITTED] T0652.046
    
    [GRAPHIC] [TIFF OMITTED] T0652.047
    
    [GRAPHIC] [TIFF OMITTED] T0652.048
    
    [GRAPHIC] [TIFF OMITTED] T0652.049
    
    [GRAPHIC] [TIFF OMITTED] T0652.050
    
    [GRAPHIC] [TIFF OMITTED] T0652.051
    
    [GRAPHIC] [TIFF OMITTED] T0652.052
    
    [GRAPHIC] [TIFF OMITTED] T0652.053
    
    [GRAPHIC] [TIFF OMITTED] T0652.054
    
    [GRAPHIC] [TIFF OMITTED] T0652.055
    
    [GRAPHIC] [TIFF OMITTED] T0652.056
    
    [GRAPHIC] [TIFF OMITTED] T0652.057
    
    [GRAPHIC] [TIFF OMITTED] T0652.058
    
    [GRAPHIC] [TIFF OMITTED] T0652.059
    
    [GRAPHIC] [TIFF OMITTED] T0652.060
    
    [GRAPHIC] [TIFF OMITTED] T0652.061
    
    [GRAPHIC] [TIFF OMITTED] T0652.062
    
    [GRAPHIC] [TIFF OMITTED] T0652.063
    
    [GRAPHIC] [TIFF OMITTED] T0652.064
    
    [GRAPHIC] [TIFF OMITTED] T0652.065
    
    [GRAPHIC] [TIFF OMITTED] T0652.066
    
    [GRAPHIC] [TIFF OMITTED] T0652.067
    
    [GRAPHIC] [TIFF OMITTED] T0652.068
    
    [GRAPHIC] [TIFF OMITTED] T0652.069
    
    [GRAPHIC] [TIFF OMITTED] T0652.070
    
    [GRAPHIC] [TIFF OMITTED] T0652.071
    
    [GRAPHIC] [TIFF OMITTED] T0652.072
    
    [GRAPHIC] [TIFF OMITTED] T0652.073
    
    [GRAPHIC] [TIFF OMITTED] T0652.074
    
    [GRAPHIC] [TIFF OMITTED] T0652.075
    
    [GRAPHIC] [TIFF OMITTED] T0652.076
    
    [GRAPHIC] [TIFF OMITTED] T0652.077
    
    [GRAPHIC] [TIFF OMITTED] T0652.078
    
    [GRAPHIC] [TIFF OMITTED] T0652.079
    
    [GRAPHIC] [TIFF OMITTED] T0652.080
    
    [GRAPHIC] [TIFF OMITTED] T0652.081
    
    [GRAPHIC] [TIFF OMITTED] T0652.082
    
    [GRAPHIC] [TIFF OMITTED] T0652.083
    
    [GRAPHIC] [TIFF OMITTED] T0652.084
    
    [GRAPHIC] [TIFF OMITTED] T0652.085
    
    [GRAPHIC] [TIFF OMITTED] T0652.086
    
    [GRAPHIC] [TIFF OMITTED] T0652.087
    
    [GRAPHIC] [TIFF OMITTED] T0652.088
    
    [GRAPHIC] [TIFF OMITTED] T0652.089
    
    [GRAPHIC] [TIFF OMITTED] T0652.090
    
    [GRAPHIC] [TIFF OMITTED] T0652.091
    
    [GRAPHIC] [TIFF OMITTED] T0652.092
    
    [GRAPHIC] [TIFF OMITTED] T0652.093
    
    [GRAPHIC] [TIFF OMITTED] T0652.094
    
    [GRAPHIC] [TIFF OMITTED] T0652.095
    
    [GRAPHIC] [TIFF OMITTED] T0652.096
    
    [GRAPHIC] [TIFF OMITTED] T0652.097
    
    [GRAPHIC] [TIFF OMITTED] T0652.098
    
    [GRAPHIC] [TIFF OMITTED] T0652.099
    
  Statement of Elwyn Tinklenberg, Commissioner, Minnesota Department 
                           of Transportation

                              INTRODUCTION

    Mr. Chairman and Members of the Committee, my name is Elwyn 
Tinklenberg. I am Commissioner of the Minnesota Department of 
Transportation and Chair of the Advanced Transportation Systems 
Subcommittee of the American Association of State Highway and 
Transportation Officials (AASHTO). I am here today to testify on behalf 
of AASHTO, and want to thank you for your leadership in holding this 
oversight hearing to review the Nation's progress in deploying 
intelligent transportation systems (ITS) for the benefit of the 
Nation's travelers.
    The Intermodal Transportation Efficiency Act of 1991 (ISTEA) and 
the Transportation Equity Act of 1996 (TEA-21) clearly established a 
national direction for the transportation community to develop and 
employ new technology to modernize the Nation's transportation system, 
improve customer service, make it safer to use and to improve the 
quality of life for the Nation.
    I am pleased to report that based on our 10 years of effort the 
surface transportation community has responded, in ways never 
anticipated and to levels never expected. However, the transformation 
is not yet complete. The foundation has been set and the best is yet to 
come. ITS has made pervasive inroads in many areas from metropolitan to 
rural America, improving safety, weather and traveler information, 
vehicle design and safety, driver protection and customer service. We 
have successfully begun transferring technology from NASA and the 
Defense Industries to the transportation arena. New partnerships never 
before envisioned have become a way of doing business for the public 
and private sector and we are establishing the needed foundation for 
interoperability through a national architecture and nationally 
consistent standards. And it is making it possible for government to 
operate differently through new organizational arrangements, better 
consistency and effectiveness of service, and stretching the use of the 
system.
    Today we want to focus on what we have done, the benefits that have 
accrued to the Nation, showcase what we believe to be a true surface 
transportation success story, and offer some thoughts for the future.
 the need for intelligent transportation systems tools and approaches.
    The 2000 Census reinforced, with regard to the transportation 
capacity, that this country cannot rely solely on building new capacity 
to keep up with population growth. The U.S. population grew by 32 
million this last decade: California by 4.1 million, Texas by 3.8 
million, Florida by 3 million, five Western and Southern States by one 
million or more, and 14 additional States by from 500,000 to one 
million.
    Vehicle miles of travel (VMT) have been growing twice as fast as 
our population. We believe that the leveling off of VMT that we have 
seen over the past year is not likely to continue very long into the 
future, and growth in VMT will resume. Freight has been growing even 
faster than VMT. Freight is expected to more than double in volume over 
the next 20 years, and it is anticipated that 82 percent of those 
shipments will travel over the roads.
    Over the last 40 years, the U.S. population grew by 100 million and 
is expected to grow by an additional 100 million the next 40. From the 
1960s through the 1990s, the United States built the 47,000-mile 
Interstate Highway System, and more than 200,000 miles of additional 
arterials. This network provides the mobility that has made the modern 
American economy possible. Our productivity and competitiveness depend 
on it.
    The strategy for the last forty years was to build the highways 
that were needed for the prospering economy. However, most of that 
construction occurred during the first half of the period. From 1956 to 
1979 total highway system lane miles increased by 1.1 million miles. 
From 1980 to 1999, the increase was less than one-third of that--only 
300,000 miles were added to the system. The fact that we have 
congestion is not surprising.
    There is a crisis of capacity--on the highways, on buses, in the 
air, and on trains. What we need now is a vision of how to sustain and 
then enhance our mobility for the next 40 years. And that vision must 
recognize that we need to use new tools and technologies to improve 
safety, while adding needed new capacity.
    Technology holds the promise of improving traffic throughput by 15 
percent or more in major urban corridors facing severe congestion. This 
includes, for example, better traveler information through 511 systems, 
incident management to clear accidents and assist stranded motorists, 
advanced traffic management centers, electronic toll systems and 
electronic clearance system for commercial trucking.
    Of course, increasing transit must also be part of the strategy to 
help add capacity and reduce congestion. In 1999, transit ridership 
reached 9 billion for the first time since 1960. That is good news for 
highway and State departments of transportation have a stake in seeing 
it increase still more. Doubling transit ridership over the next 10 
years would be an ambitious goal. In some of the most transit-oriented 
regions, that would increase transit's share of trips to as much as 20 
percent. In most other areas, a doubling would mean increasing the 
percentage of trips made by transit from 2 percent to 5 percent. 
Increasing transit ridership is a vital part of the solution, but 
investment in transit alone cannot solve the capacity problem. Overall, 
doubling transit ridership would, at best, meet 10 percent of travel 
demand, leaving a substantial gap in the capacity needs for the 
remainder of passenger trips and all of freight.
    Even if we can achieve the ambitious goal of meeting a total of 25 
percent of demand through increasing transit and through technology 
deployment and improved operations, the remaining 75 percent 
realistically can only to be met by building additional capacity. New 
capacity--to remove bottlenecks, improve intermodal connections and 
ease congestion--will be needed throughout the country. It will be 
needed in areas in the Midwest and East with moderate population 
growth, but significantly increased traffic. It will be absolutely 
essential in the areas of the South and West facing rapid growth.

               THE PROMISE OF TECHNOLOGY BEING FULFILLED

    I am proud of what we have accomplished in my State of Minnesota. 
Minnesota has a broad range of ITS technologies deployed, planned, or 
being tested and evaluated. Let me mention a few:
    <bullet> Statewide Road/Weather Information System (RWIS)--86 
stations statewide provide real-time pavement and atmospheric data and 
forecasts.
    <bullet> 511--In November of this year wireless callers will be 
connected to the statewide road/weather information service. Future 
efforts will include transit and traffic conditions.
    <bullet> Statewide system of transportation operation and 
communication centers including computer-assisted dispatching, mobile 
data terminals and automatic vehicle location for the MN State patrol.
    <bullet> Adaptive signal systems integrated with regional ramp 
metering in the Twin Cities. The ramp metering systems have improved 
freeway travel time 22 percent, reduced crashes by 24 percent, and 
improved freeway throughput by 14 percent.
    <bullet> Automated scheduling of transit Federal technical 
assistance and special deployment funding along with a skilled 
workforce and leadership in Minnesota helped to shape the success we 
have achieved.
    Since 1994, when the U.S. Department of Transportation (USDOT) ITS 
Joint Program Office in conjunction with AASHTO and ITS America began 
tracking and evaluating the deployment of ITS technologies and 
documenting their benefits, a clear pattern has begun to emerge.
    As of the year 2000 for the seventy-five largest urban areas in the 
country the following has occurred in deployment: twenty-four cities 
have a high level of integrated ITS tools, 22 percent of freeway miles 
have real time data collection technologies, 73 percent of toll 
collection lanes have electronic toll collection capability, 31 percent 
of fixed route transit facilities have automatic vehicle location 
technology and 49 percent of signalized intersections are under 
centralized or closed loop control.
    The ITS technologies, tools and practices being deployed across the 
country have seven major focus areas: Metropolitan, Rural, Transit, 
Commercial Vehicle Operations, Intelligent Vehicle Initiatives, 
Standards Development and Partnerships. Metropolitan deployments have 
concentrated on freeway and arterial management, incident and emergency 
response, electronic toll collection and payment, transit system 
management, and regional multimodal traveler information. In the rural 
environment deployments are focusing on crash prevention and security, 
emergency services, travel and tourism services, traffic management, 
road weather information, transit, and operations and maintenance. The 
transit initiatives include automatic vehicle location and dispatching, 
security, and record keeping systems. The commercial vehicle focus is 
on safety assurance, credential administration, electronic screening 
and operations. Intelligent vehicle initiatives dealing with driver 
assistance services and employing improved technology in snow and ice 
control fleets and public safety operations. We also put in place 
standards for the tools and software that are needed and facilitated 
new public/private partnerships and public/public partnerships.

Some Highlights of the Benefits of Deployments in Metropolitan Areas
    <bullet> Some of the most impressive benefits of the ITS Program in 
the first generation have been realized in the major metropolitan areas 
across the country. From arterial and freeway management to emergency 
and incident response to electronic toll collection to better traveler 
information these technology deployments are improving safety, reducing 
trip delay/improving trip reliability, and reducing costs to the 
transportation user.
    <bullet> Dynamic message signs have been deployed in virtually all 
major metropolitan areas to improve driver information on major 
freeways.
    <bullet> Automated enforcement of traffic signals has reduced 
violations from 20 percent to 75 percent.
    <bullet> Adaptive Signal Controls have reduced traffic delay from 
14 percent to 44 percent, while reducing fuel consumption anywhere from 
2 percent to 13 percent, and reducing stops from 10 percent to 41 
percent.
    <bullet> Ramp metering has shown 15 percent to 50 percent reduction 
in crashes. Recent studies have shown a 16 percent increase in 
throughput with an 8 percent to 60 percent increase in speeds on 
freeways.
    <bullet> 360 agencies across the country have installed signal 
preemption systems for emergency vehicles improving emergency response 
times to life threatening events.
    <bullet> Incident management systems installed across the country 
are estimated to be reducing travel delay from 95,000 to 2 million 
hours per year.
    <bullet> Electronic Toll Collection systems like E-Zpass have 
reduced staffing at toll collection booths by up to 43 percent, money 
handling by almost 10 percent, and toll road maintenance cost by 15 
percent. In addition, travelers have been able to adjust their starting 
times by up to 20 percent. These systems are also contributing to the 
reduction of Carbon Monoxide (8 percent), and Hydrocarbons (7 percent) 
in metropolitan areas.

Some Highlights of the Benefits of ITS Deployments in Rural Areas
    Rural activity has focused around improving emergency response/
services, traveler information, road/weather information, operations 
and management, and developing partnerships between State and local 
agencies.
    Road/weather information systems have been implemented in almost 
half of the States. The information is being used to better utilize 
snow and ice operations and provide traveler information prior to and 
during winter operations.
    New technologies are being used to allow improved tracking of 
snowplows and technology to allow snowplow operators to see the road 
even in the worst of conditions.
    Highway-rail grade crossings have been made safer through the use 
of new technologies.
    95 percent of drivers equipped with Mayday/Onstar type systems 
reported feeling more secure.

Some Highlights of the Benefits of ITS Deployments in Transit Systems
    In continuing surveys of over 500 transit systems across the 
country we find deployment of ITS technologies have focused on 
automatic vehicle location (AVL), operations and scheduling software 
programs, automated dispatching, use of mobile data terminals in buses, 
security systems within buses, and pre-trip passenger information. 
These transit systems are representative of both metropolitan and rural 
systems.
    AVL, a basic building block for ITS applications in for transit 
systems, is used by dispatchers, vehicle operators, schedulers, 
planners, maintenance staff, supervisors, and customers. It has been 
deployed in a variety of areas across the country. Where deployed, AVL 
has improved in schedule adherence ranging from 12.5 percent to 90 
percent.
    Customer complaints are reduced by up to 26 percent with the 
installation of computer-assisted dispatch (CAD) and AVL systems. 
Silent Alarm systems have supported a 33 percent reduction in passenger 
assaults where deployed.
    Software that assists scheduling, dispatching, record keeping and 
billing have reduced agency-operating costs by up to 8.5 percent per 
vehicle mile.

Some Highlights of the Benefits to Commercial Vehicle Operation
    Three main technology areas are designed for commercial vehicle 
operations (CVO) applications are safety information exchange, 
electronic screening and electronic credentialing.
    As of 1999, 84 percent of the States were using Aspen, a software 
system that facilitates recording and processing of inspection data and 
provides historical information on the safety performance of motor 
carriers.
    Nearly 7000 motor carrier fleets nationwide are participating in 
such electronic screening programs as Pre-Pass or NORPASS, which is 
saving operators significant time in bypassing of inspection and weigh 
stations.

Some Highlights of the Intelligent Vehicle Initiative (IVI)
    Research and development activities underway with industry are 
heavily focused at the potential safety benefits of IVI.
    Given that approximately one-third of fatalities are related to 
run-off-the-road and one-fourth with intersections, the following 
activities will truly help reduce fatalities in the future.
    <bullet> Road Departure Crash Warning--An operational test for a 
system that can warn a driver when they are about to drift off the 
road, or are traveling too fast for an upcoming curve.
    <bullet> Intersection Collision Avoidance System--The Intersection 
Collision Avoidance System is designed to provide a driver with 
warnings of an impending crash or potential hazards at intersections.
    <bullet> ``Rollover Stability Advisor'' to address large truck 
rollovers.
    <bullet> An operational test of large trucks equipped with a 
collision warning system and an advanced braking system.
    <bullet> An operational test of an infrastructure-assisted hazard 
warning system for commercial vehicles.
    <bullet> An operational test of a fleet of snowplows equipped with 
collision warning and lateral guidance.
    <bullet> Adaptive Cruise Control--Automatic ``headway keeping'' to 
maintain safe space between vehicles and warn drivers if following too 
closely.

Some Highlights of ITS Standards Deployment
    ITS standards are the means by which the agencies and industry 
ensure that the tools and technologies being deployed are adaptable and 
interoperable over time.
    We are pleased to report that the ITS standards development 
partnership with the several organizations has been very successful. 

The Federal, State, local and private sector partnership has:
    <bullet> Developed over 50 key ITS standards.
    <bullet> Balloted and approved by AASHTO 24 ITS standards and will 
be balloting another 23 within the next 3 years.
    <bullet> Supported training in the application of key ITS 
standards, encouraged State departments of transportation to deploy ITS 
technologies using the new ITS standards, conducted case studies of the 
applications of ITS technologies to share with others, and produced a 
series of guide documents to assist with the application of the 
standards.
    <bullet> Given special attention to the deployment of actuated 
signal systems, dynamic message signs, traffic management center-to-
center communications, incident management, and road weather 
information systems.
    As widely understood in the computer and communications world, the 
technology is changing so rapidly that standards developed today are 
soon obsolete or in great need of revision and enhancement. Thus it is 
important that the partnerships with FHWA, the Institute of 
Transportation Engineers (ITE), the National Electrical Manufacturers 
Associations (NEMA) and others be maintained and that funding to 
support the development and enhancement of standards for evolving 
technologies continue.

        PARTNERSHIPS CREATED THROUGH ITS RESEARCH AND DEPLOYMENT

    One of the exciting benefits of the research, testing and 
deployment of new ITS technologies has been the unique partnerships 
that have been formed over the last 10 years. Federal, State and local 
governments have found that ITS technologies have created an 
environment in which new sharing opportunities can be realized. 
Associations like ITS America, ITE, NEMA, American Public Works 
Association (APWA), American Public Transportation Association (APTA), 
Association of Metropolitan Planning Organizations (AMPO) and others 
have come together to ensure consistent public agency and industry 
communication and development of guidelines, input to national 
directions, and provision of new services to the public. Examples 
include:
    <bullet> Transportation operations and management centers are 
springing up all over the country. These operations/communications 
centers feature unique partnerships between State and local agencies, 
law enforcement and public safety agencies and in some cases transit 
operations. The foundation of these partnerships is the need for common 
information which is enabled by the shared technology tools needed by 
all agencies, such as automatic vehicle location (AVL), CAD and joint 
operations in responding to incidents and emergencies and in providing 
traffic conditions reporting via the Internet through other means.
    <bullet> National partnerships have been formed between AASHTO, ITS 
America, APTA, AMPO, Cellular phone associations, FHWA and others to 
guide the uniform deployment of the new national traveler information 
phone number 511.
    <bullet> Jointly sponsored national and international conferences 
to share and advance the State of the use of ITS technologies.
    <bullet> Partnerships that have been formed to develop and maintain 
the standards that provide the unifying operations between public and 
private sector partners.
    <bullet> Numerous public/private partnerships have been implemented 
as ITS systems and technologies have been researched and deployed 
throughout the country.
    <bullet> Unique partnerships that have been formed between Federal 
and State agencies, national associations and the higher education 
community to cooperatively pursue ongoing research and testing of new 
technologies and educational programs to mainstream ITS into use 
throughout the Nation.

                          A LOOK TO THE FUTURE

    While much has been accomplished, the work is not done. The 
transportation community is now just beginning to realize the full 
potential of the ITS tools and technologies from the first 10 years of 
research, testing and deployment. These are truly exciting times in 
technology deployment. ITS is worldwide in its scope, long-term in its 
impact and commitment, and opening the opportunity for us to truly 
manage and operate our transportation systems in concert and make the 
customer experience seamless. We have turned the corner and ITS has now 
become pervasive and unseen in our society. The opportunities we face 
in the next generation of work in ITS include:
    <bullet> Integrating systems through ensuring that our standards 
are open, flexible and easy to use. We must make sure that we do not 
build barriers to deployment of the next generation of advanced 
systems.
    <bullet> Creating partnership opportunities among public 
organizations at Federal, State and local levels to ensure that we 
realize the full potential of ITS tools. ITS requires that the public 
and private sectors cooperate at a level not previously required. This 
will require reform of rules affecting the relationship between 
government and private sector providers.
    <bullet> Institutionalizing an operations approach to managing our 
transportation systems. To optimize efficiency, organizations must now 
institutionalize these tools and commit to providing services in ways 
that are customer focused.
    <bullet> Continuing the Federal research and operational testing of 
the technologies that are emerging for new and better ways of providing 
customer service and different ways of doing the transportation 
business. We will need continued efforts on better system integration 
tools, improved data collection and vehicle monitoring technologies, 
advanced transportation system management technologies, intelligent 
vehicle initiatives--with a strong emphasis on crash avoidance, 
integrated user information systems, and human factors.
    <bullet> Continue strong Federal funding for educating and training 
a differently skilled transportation professional and then integrating 
them into transportation organizations.
    <bullet> Continue Federal support for continually monitoring and 
updating the scores of technical standards as technology changes and as 
deployment experiences suggest modifications to the standards.
    <bullet> Focusing on achieving public awareness and political 
support to more clearly articulate how ITS is contributing to safety 
and quality of life, while offering them true choices in how their 
travel time is most productively spent.
    <bullet> Recognizing that the traveler is truly a customer with 
varying individual requirements. ITS can make it possible for the 
customer to expand their options and pattern their transportation 
options to fit their life styles.
    <bullet> Committing the necessary resources to deployment of ITS 
technologies by Federal, State and local governments and the private 
sector. This includes continuing the special Federal funding for 
deployment.
    <bullet> Simplifying ITS project approvals through possible changes 
to administrative regulatory and statutory requirements.
    We are at the end of the beginning. We must now finish the journey. 
We must now reach to create integrated and market driven systems that 
cause us to work together in new and different ways to improve the 
operation of our systems, and to improve safety and our quality of 
life.
     Statement of Lawrence Yermack, Chairman, Board of Directors, 
             Intelligent Transportation Society of America

                      INTRODUCTION AND BACKGROUND

    Chairman Reid, Ranking Member Inhofe and Members of the Committee, 
thank you for the opportunity to discuss the Intelligent Transportation 
Systems program with you today--systems that are saving lives, time, 
and money, and improving the quality of life for all Americans. My name 
is Lawrence Yermack; I am the Chairman of the Board of the Intelligent 
Transportation Society of America (ITS America). ITS America is a non-
profit 501(c)(3) organization, with over 600 members, including State 
departments of transportation, associations, non-profits, universities, 
and private companies. These member organizations represent some 60,000 
individuals involved in intelligent transportation programs around the 
world. ITS America also serves as a utilized Federal Advisory Committee 
to the U.S. Department of Transportation, rendering programmatic advice 
to the U.S. DOT on issues of research, development, and deployment of 
ITS technologies.
    Since its founding in 1990, ITS America has been, and continues to 
be, the only public-private partnership focused exclusively on 
fostering the use of advanced technologies in today's surface 
transportation systems. ITS America first received modest Federal 
funding under the Intermodal Surface Transportation Efficiency Act 
(ISTEA) of 1991 (P.L. 102-240, Dec. 19, 1991). Since 1991, the national 
ITS program has pursued research, technology development, and field-
testing of ITS technologies, and has promoted the deployment of ITS 
applications.
    In addition to serving as the volunteer Chairman of ITS America, I 
am the President of PB Farradyne, Parson Brinckerhoff's intelligent 
transportation systems company, responsible for the financial 
management, technical oversight and operations of the company. Over my 
career, I have worked in both the public and private sectors and I have 
considerable professional experience in the fields of financial and 
program management of toll systems, ITS and advanced toll technologies.
    I am honored to appear before you today to discuss the progress we 
have made in deploying intelligent transportation systems. My message 
to you today is this: the significant investment that the Federal 
Government has made in ITS, along with investments made by States and 
the private sector, have been well spent and have delivered meaningful 
and significant benefits to the safety and mobility of the American 
people.
    To illustrate this point, in my remarks I will address how ITS has 
been deployed across the country, discuss the many benefits generated 
by deployment of ITS, and finally touch on the future direction of ITS.

              A FRAMEWORK FOR UNDERSTANDING ITS DEPLOYMENT

    Since the inception of the ITS program in the early 1990s, 
government agencies--at all levels--have come to realize the important 
benefits that ITS technologies can provide. Proper investment in ITS 
can produce a safe, efficient, and environmental friendly 
transportation system that provides mobility for all of its citizens.
    The private sector also has come to realize the vast market 
opportunity that ITS provides not only in the business-to-government 
and business-to-business marketplaces, but also increasingly in the 
consumer marketplace. The ITS program has laid the foundation for an 
explosion in consumer-oriented technologies.

What Has Been Deployed?
    At the end of 2000, 55 of the 75 largest metropolitan areas had met 
the goal of medium-to-high deployment of ITS. Here are a few of the 
significant milestones.
    <bullet> Electronic toll collection has been installed on 73 
percent of existing toll road mileage.
    <bullet> Centralized or closed loop control has been installed at 
49 percent of signalized intersections.
    <bullet> Computer-aided dispatch has been installed in 67 percent 
of the emergency management vehicles and 36 percent have in-vehicle 
route guidance.
    <bullet> Electronic surveillance has been installed at 65 percent 
of the signalized intersection and 71 percent have emergency 
preemption.
    <bullet> Traffic Management Centers have been established in two-
thirds of the areas monitoring freeway traffic and providing early 
notification of incidents.
    Over 384 public transit systems nationwide have installed, or are 
installing, components of ITS to provide the public with safer and more 
effective public transportation.
    <bullet> Advanced communication systems have been installed at 213 
transit agencies.
    <bullet> Automatic vehicle location systems have been installed at 
154 agencies.
    <bullet> Electronic payment systems have been installed at 108 
transit agencies.
    <bullet> Automatic passenger counters have been installed at 154 
transit agencies.
    <bullet> Automated Transit information is available 163 transit 
agencies.
    <bullet> Computer-aided Dispatch systems are available at 152 
agencies.
    <bullet> Traffic signal priority is available at 55 agencies.

                      CONSUMER AUTOMOBILE PROGRAMS

    Telematics devices (advanced in-vehicle communications 
technologies) allow for automated crash identification, keyless entry, 
remote diagnostics, and a variety of mobile commerce applications. 
According to a study by McKinsey & Company, the telematics marketplace 
will likely generate up to $100 billion in sales in the United States, 
Japan and Western Europe by 2010.
    Onstar, one of more recognized telematics brand names, currently 
has 1.2 million subscribers. Over 8 million navigation units have been 
deployed in automobiles worldwide. The Federal ITS Program has been 
essential to the growth of this emerging marketplace as well as to the 
development of other safety-enhancing vehicular technologies.
    The Light Vehicle Program of the Intelligent Vehicle Initiative is 
a crucial part of this deployment. The program establishes minimum 
performance requirements and standards, and fosters the development of 
cooperative systems, both vehicle-to-vehicle and vehicle-to-
infrastructure.
    Examples of completed accomplishments are the NHTSA/Volpe analysis 
of Forward Collision and Roadway Departure countermeasures and the 
Field Trial of Adaptive Cruise Control systems. Ongoing research 
projects include the Field Trial of a Forward Collision Warning system 
and the establishment of the IVI Enabling Research Consortium for joint 
public-private research. Key future efforts will include the Field 
Trial of an advanced Roadway Departure system and the identification 
and design of cooperative systems for near-term deployment.
    There are two significant means by which the IVI program has 
accelerated the growth of in-vehicle electronic marketplace. As 
wireless and location technology has progressed, there has been a 
concomitant increase in the ability of vehicle manufacturers to offer 
safety, information and entertainment features. IVI research is 
revealing the safety effects associated with these systems and will 
determine the availability of these features while the vehicle is in 
motion. Safety warning systems based on IVI activities include deployed 
Adaptive Cruise Control with safety warnings and first-generation 
Roadway Departure Warning systems (announced for deployment).

                      COMMERCIAL VEHICLE PROGRAMS

    The trucking industry has begun to adopt three ITS technologies in 
attempt to enhance the safety, efficiency, and productivity of the 
movement of goods on America's roads: transponders, Commercial Vehicle 
Information Systems and Networks (CVISN), and Intelligent Vehicle 
technologies for heavy trucks.
    Transponders have the ability to monitor drivers, vehicles and 
loads to ensure safe, and efficient operations. For instance, 
transponders which have already been approved for use by the U.S. 
Customs Service, allow a safety enforcement agency such as the State 
Police, or State Motor Vehicle Department to input data related to 
safety, taxes, permitting, driver identification and freight load 
information in a single device. Use of this type of technology ensures 
the safe operation of all trucks, including those domiciled outside our 
Nation's borders, as they travel on U.S. roads, while permitting the 
tariff agency to perform its functions as well. The goal is to 
facilitate the deployment of a single multi-purpose transponder to 
handle functions including toll payment, safety, credentialing, weigh 
in motion pre-clearance, and other e-commerce applications. This is a 
rapid growth area and presently there are 30 States, which employ 
transponders for preclearing trucks through roadside inspection 
stations. The 13 Northeast states throughout the Interagency Group 
employ a single transponder known as EZPass for its electronic toll 
collection system which boasts of over 6 million devices in use today. 
These types of transponders can ultimately be used at the borders to 
record and monitor the entry of safe vehicles and drivers into and 
throughout the country.
    The second area of interest is credential administration. States 
and the motor carrier industry have collaborated to develop and deploy 
such programs consistent with the Federal Commercial Vehicle 
Information Systems and Networks (CVISN) architecture.
    Eight States have completed the initiation of a CVISN and 34 others 
are actively in the process of completion. Results of testing have 
shown many positive results including a 75 percent reduction in the 
current cost of credential administration for both the States and 
industry, with a $20 per process savings in fees (Kentucky estimates 
based upon systems deployed in the State). Also a cost/benefit savings 
for motor carriers ranging between 4:1 and 20:1, depending on carrier 
size (American Trucking Associations Foundation Study), and reductions 
in State administrative costs resulting in these programs being self 
sufficient in most States (study by the National Governors 
Association).
    The last area of potential benefits from technological deployments 
relates to the Intelligent Vehicle Initiative for Heavy Trucks. This is 
an ongoing program sponsored by the U.S. DOT with partners from various 
private sector enterprises. The benefits derived from front-end 
collision warning devices when coupled with the action of the adaptive 
cruise control systems are potentially enormous. Field Operations Tests 
are underway to determine the exact extent of these expected savings, 
not only in dollars, but also in lives saved. Other tests now underway 
include work zone warnings, and rollover warning and protection 
devices.

                         WHAT HAVE WE ACHIEVED?

    Four benefit areas and associated goals have been identified 
against which change and progress can be measured. These goals provide 
the guideposts for fully realizing the opportunities that ITS 
technology systems can provide in enhancing the operation of the 
Nation's transportation systems, in improving the quality of life for 
all citizens, and in increasing user satisfaction, whether for business 
or personal travel.

                            SAFETY BENEFITS

    Some of the benefits that have been realized by using ITS to 
improve safety include:
    <bullet> Automated enforcement of traffic signals has reduced 
violations 20 percent to 75 percent, leading to reductions in crashes 
and fatalities.
    <bullet> Ramp metering has shown that these systems reduce crashes 
by 15 percent to 50 percent.
    <bullet> Implementation of ITS results in smoother traffic flow and 
fewer stops, which enhances safety by providing less speed variance and 
fewer opportunities for conflicts.
    <bullet> Road Weather Information Systems, combining pavement 
condition and other environmental sensors with driver advisories 
through Dynamic Message Signs (DMS), have proven effective in lowering 
speeds and increasing safety during adverse driving conditions.
    <bullet> Provision of a silent alarm feature with an AVL system 
helps improve safety of many transit systems around the country. In 
Denver, this feature decreased the number of passenger assaults per 
100,000 passengers by 33 percent between 1992 and 1997.

                          EFFICIENCY BENEFITS

    Some of the benefits that have been realized by using ITS to 
improve system efficiency and economy include:
    <bullet> Adaptive signal control has reduced delay from 14 to 44 
percent.\1\
---------------------------------------------------------------------------
    \1\ Data on the benefits of ITS that are presented in this section 
and subsequent sections of the White Paper were extracted from the ITS 
Benefits database, located at http://www.benefitcost.its.dot.gov/
---------------------------------------------------------------------------
    <bullet> Aggressive incident management programs have saved 
travelers in metropolitan areas 100,000-2,000,000 hours per year.
    <bullet> Ramp metering systems have produced 8 to 60 percent 
increases in speed (i.e., improved throughput) on freeways.
    <bullet> Electronic toll collection can reduce the costs of plaza-
related roadway maintenance by 14 percent. A study of the Carquinez 
Bridge in California estimates a person-time savings of nearly 80,000 
hours (per year), more than $1 million in lost time.
    <bullet> Incident management has saved travelers in a metropolitan 
area $1-$45 million per year, depending on the extent of the system.
    <bullet> An electronic fare payment system in New Jersey has saved 
$2.7 million in reduced handling costs of fare media with increased 
revenues of 12 percent after automated fare collection implementation.
    <bullet> Implementation of ``next vehicle arriving'' technology, 
AVL (automatic vehicle location), and CAD (computer-aided dispatching) 
has added more certainty for many transit riders in several cities. In 
the Denver Regional Transportation District, for example, the number of 
passengers that arrived at stops late decreased by 21 percent; in 
Portland, Oregon, the Tri-Met system achieved a 9.4 percent improvement 
in on-time performance.

                           MOBILITY BENEFITS

    Some of the benefits that have been realized by using ITS to 
improve users' mobility in and access to the transportation system 
include:
    <bullet> Advanced traveler information systems (ATIS) have improved 
the ability of individuals to manage their travel, improving the 
likelihood of choosing a departure time, route, and mode of travel 
enabling them to arrive at or before desired arrival time. ATIS users 
reduce late arrivals by 69 percent when compared to those who don't use 
ATIS.
    <bullet> The Federal Communications Commission has allocated the 
``511'' number for the provision of traveler information. Data gathered 
by traffic management systems, including accidents, road conditions, 
and alternative routes can be directly accessed by drivers to empower 
drivers to make optimum route selection, to shorten travel time, and to 
reduce the stress of congestion.
    Smart card technology is simplifying the daily commute of more than 
100,000 daily transit users in the Washington DC area. The New York 
City Metro Card system is expected to save an estimated $70 million per 
year in fare evasion. Ventura County California will save an estimated 
$90,000 by eliminating transfer slips.
    Public transportation providers in rural areas can achieve cost 
efficiencies by increasing ridership. The CAD system in Sweetwater 
County, Wyoming (which allows same-day ride requests to be accepted) 
has contributed to a 3,000 passenger monthly increase while reducing 
operational expenses by 50 percent over a 5-year period on a per 
passenger basis.

     HOW HAS ITS PROMOTED A CLEANER ENVIRONMENT AND REDUCED ENERGY 
                              CONSUMPTION?

    Some of the benefits that have been realized by using ITS to 
mitigate the negative community and lifestyle impacts of congestion, 
crashes, air quality, noise and other factors include:
    <bullet> Electronic Toll Collection in Florida has resulted in 
emissions reductions of 7.3 percent for CO, and 7.2 percent for HC with 
40 percent ETC usage.
    <bullet> Improvements to traffic signal control systems have 
reduced fuel consumption between 2 percent and 13 percent.
    <bullet> TransGuide in San Antonio, Texas reports estimated fuel 
consumption savings of up to 2,600 gallons per major incident as a 
consequence of reduced congestion during incident response and 
clearing.
    <bullet> The development and use of better models and more robust 
data on environmental impacts will provide more information on the 
extent to which ITS technologies positively affect the environment and 
how ITS can be used proactively to address problems in nonattainment 
areas. The future goal is to save a minimum of one billion gallons of 
gasoline each year and to reduce emissions at least in proportion to 
these fuel savings through the use of ITS technologies.

            WHAT ROLE HAS ITS AMERICA PLAYED IN DEPLOYMENT?

    Since its inception in 1991 ITS America has served a pivotal role 
in the development and deployment of ITS technologies and systems. In 
1992 ITS America developed the first Program Plan which has served as 
the blueprint for ITS deployment in the last decade. ITS America was 
instrumental in the development of the National ITS Architecture and 
development of standards working closely with the Standard Development 
Organizations. Today, ITS America continues to bring the diverse 
interests of the ITS Community to the table to foster cooperative 
development and deployment of these technologies. As rate of deployment 
increases, the need for this cooperation between State, local, and 
Federal Government and the private sector only increases. ITS America's 
technical committees (which meet with regularity) continue provide a 
forum for technical experts for the private sector, government, 
academia to reach consensus essential to the timely deployment of ITS 
systems.

                        A VISION FOR THE FUTURE

    In each of these areas, the integrated nature of ITS technologies 
and services promotes opportunities (and presents challenges) for the 
institutional reform and reinvention that is so critical to the next 
stage of the transportation service delivery and infrastructure 
management.
    In the future, the initial investment in ITS infrastructure and in-
vehicle technologies may be seen as the first wave of a technology 
revolution. The second wave of the ITS technology revolution will be 
the integration of localized intelligent transportation systems into 
larger and larger integrated networks of information. Communications 
from vehicle-to-infrastructure and from infrastructure-to-vehicle will 
become richer. Both the quality and quantity of data transmission will 
increase. And as a result of network integration, not only will we see 
greater efficiencies in America's transportation system; we will see a 
fundamental shift in how America does business.
    For example, the mass adoption of personal computers in the 1970s 
and 1980s did not significantly increase workplace productivity until 
these computers were networked in the 1990s--and then the increased 
productivity was dramatic. Similarly, while the initial investment in 
ITS has produced only modest gains in efficiency, once these 
transportation information systems are widely deployed and networked, 
then, we will enjoy dramatically increased efficiencies.

Development of an Integrated Network of Transportation Information
    The future vision for surface transportation is based on 
information management and availability, on connectivity, and on system 
control and optimization--in short, the creation of an integrated 
national network of transportation information.
    The information to be gathered and managed includes the physical 
State of the infrastructure, how it is being used (real-time and 
historically), how it is being maintained, and the environment, 
including relevant weather conditions. This information network depends 
on forging new forms of stakeholder cooperation across all sectors.
    Seamless Travel for People. For the traveling public, an integrated 
network of transportation information makes travel reasonable and 
convenient for all users, regardless of age or physical disability. It 
means availability of static and real time information on the 
availability and condition of components of the transportation system 
that will allow choice of travel mode. It means full coordination 
between transit, rail, highway, and arterial systems. It means 
eliminating missed connections and, through work-zone management, 
eliminating confusion during detours and diversions.
    Information will be available on all modes via web-based, radio and 
calls centers and will include automobile and transit travel. Other 
information services will include online mapping and driving direction, 
en-route variable message signs and kiosks, and personal subscription 
services as well as real-time information for both pre-trip planning 
and enroute modifications, covering the current and expected 
conditions.
    Seamless Freight Movement. For the movement of freight, an 
integrated network of transportation information means the availability 
of information that will facilitate shipments moving more efficiently 
from origin to destination both within and across modes. It means real 
time information at points where shipments transfer from one mode of 
transportation to another and cross-jurisdictional boundaries. Shippers 
and customers will have better information on the location of cargo and 
mobile assets throughout the trip. It means information will be 
exchanged more efficiently to and among regulatory agencies.

Advanced Crash Avoidance Technologies
    Advanced crash avoidance technologies will help to significantly 
reduce the number of vehicle crashes. Unprecedented levels of safety, 
mobility, and efficiency will be made possible through the development, 
integration, and deployment of a new generation of in-vehicle 
electronics and vehicle automation. These technologies also support 
selective automated enforcement, including the determination of fitness 
to drive.
    In-Vehicle Electronics and Vehicle Automation. Four kinds of in-
vehicle electronics products will be available: information products, 
diagnostic/prognostic products, driver assistance products, and active 
safety products. All will help drivers and vehicles to perform better 
and more safely.
    Driver Qualification and Automated Enforcement: Technology will be 
available to assure that a driver/operator is appropriately licensed, 
unimpaired, and alert. Automated enforcement that is carefully applied 
and protective of personal privacy will reduce crashes and encourage 
safe and responsible driving.

Automatic Crash Detection and Response
    Getting emergency response teams to the scene of a crash or other 
injury-producing incident as quickly as possible is critical to saving 
lives. ITS technology will allow emergency response teams to receive 
timely notice of the incident and be efficiently routed to the scene 
and then to the hospital. It means they will be aware of and able to 
convey the nature and degree of the injuries and thereby provide timely 
medical care.
    Traffic-sensitive route planning software will identify which EMS 
unit, among those available and appropriate for the specific incident, 
can arrive at the accident site in the shortest travel time. Route 
guidance software will efficiently direct the unit to the scene, with 
the way cleared and the trip speeded by traffic signal preemption and 
other traffic control mechanisms. At the scene, direct audio and video 
communication with the trauma center will provide the EMS team with 
instructions on immediate treatment.

Advanced Transportation Systems (encompassing multiple transportation 
        modes)
    Advanced transportation systems facilitate better management of the 
flow of vehicles (automobiles, public transit vehicles, and trains) 
through the physical infrastructure; better vehicle operator decisions 
based on the cooperative exchange of data between vehicles and the 
infrastructure, and system automation.
    Advanced Transportation Management Systems. Advanced transportation 
management systems enable area-wide surveillance and detection, rapid 
acquisition of traffic flow data, real-time evaluation of traffic 
flows, predictive capabilities regarding near-term, real-time 
operational responses to traffic flow changes, and evaluation of the 
operational responses to traffic flow changes.
    Vehicle-Infrastructure Cooperation. An important foundation for 
effective transportation management is an exchange of information 
between equipped vehicles and the infrastructure. The infrastructure 
may include instrumented roadways or wireless communications between 
vehicles and an information provider. Vehicles will report on the rate 
at which traffic is flowing, the condition of the roads, weather 
conditions, etc. The infrastructure-based system will analyze these 
data to create an overall understanding of the roadway environment and 
report this back to vehicles and their drivers/operators to use in 
planning travel.
    Transportation Automation. Technologies will include automation of 
all or part of the driving task for private cars, public transportation 
vehicles, and maintenance vehicles through an intelligent physical 
infrastructure. The primary objective is to increase capacity and flow. 
Research in infrastructure-vehicle automation will include automated 
rapid transit systems, precision docking of vehicles, dedicated lanes 
for automated trucks, automatic guidance of snow removal and other 
maintenance vehicles, and eventually, fully automated passenger 
vehicles.
    Mobile Commerce. The same in-vehicle communication systems (or 
telematics) which enable automated crash identification and vehicle-
infrastructure cooperation allows the automobile to become the point-
of-purchase for consumer transactions. Hotel reservations, shopping, 
and even stock transactions can be (and to an extent are currently 
being) conducted through the use of telematics devices. The GPS and 
other vehicle-identifying technologies inherent in ITS, will enable 
businesses to offer consumers location-specific goods and services. The 
advent of mobile commerce will be part of the fundamental shift in how 
Americans do business through the use of ITS.

                               CONCLUSION

    ITS research and deployment must continue to flourish within the 
foreseeable future. ITS technologies are quickly becoming part of the 
fabric of design and operation of our Nation's transportation system 
and hold the promise of continuing to provide our citizens the most 
efficient, the safest and the most environmentally sound transportation 
system in the world. We look forward in working with you to design a 
continuing ITS program that will fulfill the drams of the American 
traveling public and the private sector industry that will benefit from 
a vital ITS program.
    Thank you.

    [GRAPHIC] [TIFF OMITTED] T0652.100
    
    [GRAPHIC] [TIFF OMITTED] T0652.101
    
    [GRAPHIC] [TIFF OMITTED] T0652.102
    
    [GRAPHIC] [TIFF OMITTED] T0652.103
    
    [GRAPHIC] [TIFF OMITTED] T0652.104
    
    [GRAPHIC] [TIFF OMITTED] T0652.105
    
    [GRAPHIC] [TIFF OMITTED] T0652.106
    
    [GRAPHIC] [TIFF OMITTED] T0652.107
    
    [GRAPHIC] [TIFF OMITTED] T0652.108
    
    [GRAPHIC] [TIFF OMITTED] T0652.109
    
    [GRAPHIC] [TIFF OMITTED] T0652.110
    
    [GRAPHIC] [TIFF OMITTED] T0652.111
    
    [GRAPHIC] [TIFF OMITTED] T0652.112
    
    [GRAPHIC] [TIFF OMITTED] T0652.113
    
    [GRAPHIC] [TIFF OMITTED] T0652.114
    
    [GRAPHIC] [TIFF OMITTED] T0652.115
    
    [GRAPHIC] [TIFF OMITTED] T0652.116
    
    [GRAPHIC] [TIFF OMITTED] T0652.117
    
    [GRAPHIC] [TIFF OMITTED] T0652.118
    
    [GRAPHIC] [TIFF OMITTED] T0652.119
    
    [GRAPHIC] [TIFF OMITTED] T0652.120
    
    [GRAPHIC] [TIFF OMITTED] T0652.121
    
    [GRAPHIC] [TIFF OMITTED] T0652.122
    
    [GRAPHIC] [TIFF OMITTED] T0652.123
    
    [GRAPHIC] [TIFF OMITTED] T0652.124
    
    [GRAPHIC] [TIFF OMITTED] T0652.125
    
    [GRAPHIC] [TIFF OMITTED] T0652.126
    
    [GRAPHIC] [TIFF OMITTED] T0652.127
    
    [GRAPHIC] [TIFF OMITTED] T0652.128
    
    [GRAPHIC] [TIFF OMITTED] T0652.129
    
    [GRAPHIC] [TIFF OMITTED] T0652.130
    
    [GRAPHIC] [TIFF OMITTED] T0652.131
    
    [GRAPHIC] [TIFF OMITTED] T0652.132
    
    [GRAPHIC] [TIFF OMITTED] T0652.133
    
    [GRAPHIC] [TIFF OMITTED] T0652.134
    
    [GRAPHIC] [TIFF OMITTED] T0652.135
    
    [GRAPHIC] [TIFF OMITTED] T0652.136
    
    [GRAPHIC] [TIFF OMITTED] T0652.137
    
    [GRAPHIC] [TIFF OMITTED] T0652.138
    
    [GRAPHIC] [TIFF OMITTED] T0652.139
    
    [GRAPHIC] [TIFF OMITTED] T0652.140
    
    [GRAPHIC] [TIFF OMITTED] T0652.141
    
    [GRAPHIC] [TIFF OMITTED] T0652.142
    
    [GRAPHIC] [TIFF OMITTED] T0652.143
    
    [GRAPHIC] [TIFF OMITTED] T0652.144
    
    [GRAPHIC] [TIFF OMITTED] T0652.145
    
    [GRAPHIC] [TIFF OMITTED] T0652.146
    
    [GRAPHIC] [TIFF OMITTED] T0652.147
    
    [GRAPHIC] [TIFF OMITTED] T0652.148
    
    [GRAPHIC] [TIFF OMITTED] T0652.149
    
    [GRAPHIC] [TIFF OMITTED] T0652.150
    
    [GRAPHIC] [TIFF OMITTED] T0652.151
    
    [GRAPHIC] [TIFF OMITTED] T0652.152
    
    [GRAPHIC] [TIFF OMITTED] T0652.153
    
    [GRAPHIC] [TIFF OMITTED] T0652.154
    
    [GRAPHIC] [TIFF OMITTED] T0652.155
    
    [GRAPHIC] [TIFF OMITTED] T0652.156
    
    [GRAPHIC] [TIFF OMITTED] T0652.157
    
    [GRAPHIC] [TIFF OMITTED] T0652.158
    
    [GRAPHIC] [TIFF OMITTED] T0652.159
    
    [GRAPHIC] [TIFF OMITTED] T0652.160
    
    [GRAPHIC] [TIFF OMITTED] T0652.161
    
     Responses from Lawrence Yermack to Additional Questions from 
                              Senator Reid

    Question 1. You mention in your testimony that 55 of our largest 
metropolitan areas have begun significant deployment of ITS. You also 
have set a goal that all 75 of these metropolitan areas have a medium 
to high level of deployment by 2006. Can you explain what you mean by a 
``medium to high level of deployment?''
    Response. In order to monitor progress toward this goal (and more 
generally monitor progress in Intelligent Transportation Systems (ITS) 
deployment), the Department of Transportation has been tracking 
deployment of five specific ITS components as well as their integration 
in the 78 largest metropolitan areas. The specific components the 
Department has been tracking are (1) freeway management or incident 
management systems; (2) transit management or electronic fare payment 
systems; (3) arterial management systems; (4) regional multi-modal 
traveler information systems, and (5) emergency management systems. 
These components were identified as best representing the critical 
components of a comprehensive urban ITS deployment.
    For each component, the Department is tracking its level of 
deployment in each of these metropolitan areas using one or more 
indicators and have established a threshold value for each indicator. 
When certain indicators reach the threshold level, that metropolitan 
area is considered to have achieved a medium level of deployment. An 
area is considered ``high'' when it achieves the threshold value for at 
least one indicator for each component (i.e., each of the five 
components we are tracking are deployed to some minimal level in that 
area.)
    It should be noted that achieving these medium and high thresholds 
only indicates that the metropolitan area has made a significant 
commitment to ITS across a number of critical components. It should not 
be interpreted to mean that the metropolitan area has fully deployed 
ITS with a particular component or across all components. For example, 
the indicator used for arterial management systems is the percentage of 
signalized intersections in a metropolitan area under computerized 
control. A jurisdiction that has more than one-third of their signals 
under computerized control would be considered above the threshold in 
that area. While this clearly demonstrates a commitment to deploying 
ITS on their arterial roadways, it does not mean that all signals 
within that jurisdiction that should be under computerized control are 
all computerized.

    Question 2. What will it take for you to meet this goal? What are 
the biggest barriers to widespread ITS deployment?
    Response. While the Department believes it is on track to meet this 
goal, we must recognize that this is only the first step toward the 
full deployment of ITS nationwide. At the current pace, most, if not 
all of the largest metropolitan areas will have achieved a medium to 
high level of deployment by 2006. While this measure indicates that 
these jurisdictions will have made a significant commitment to ITS, it 
also means that without more aggressive actions it will be many more 
years before widespread deployment is attained.
    The biggest barriers to widespread ITS deployment are:
    (1) The lack of full knowledge of the real-time conditions on the 
surface transportation system. For ITS to fulfill its promise of 
operating the surface transportation system at the highest level of 
efficiency requires the availability of realtime traffic, transit, and 
roadway weather information. Today, less than 25 percent of the 
National Highway System is sufficiently instrumented to provide this 
information. If ITS is to be used to improve the management of 
incidents, reduce delays through work zones, adapt to changing weather 
conditions, and respond in emergency situations, we need to deploy the 
necessary sensors, cameras, and communication systems to provide this 
critical data.
    (2) The lack of an institution to both champion and be accountable 
for the operation of the surface transportation system. Existing 
transportation institutions were largely created to build the 
transportation system. Deployment of ITS enables and enhances the 
operation of the system. There is no existing institution in a 
metropolitan area that has responsibility and accountability for the 
operation of the system. There needs to be a mechanism to bring the key 
players to the table, including non-traditional transportation partners 
such as police, fire, emergency management service, towing service 
operators, parking operators, etc., to develop and implement a regional 
operations plan.
    (3) The lack of investment in ITS deployment and operations. Given 
the significant infrastructure needs that exist, it is difficult for 
ITS and operations projects to compete for funding. Acceleration of ITS 
deployment will require stronger support for efforts that increase road 
efficiency through intelligent transportation systems.

    Question 3. How would you define full deployment? Are there any 
metropolitan areas that you would consider to be close to fully 
deployed?
    Response. The Department has begun to develop a set of minimum 
requirements for a fully functional surface transportation 
``infrastructure.'' That work, which is not complete, will give us a 
good part of the definition requested. In the meantime, insight into 
the extent of deployment in leading metropolitan areas can be drawn 
from our recent efforts to implement a mobility monitoring program. The 
goal of this program is to identify cities with the highest levels of 
instrumented freeways that could be used to develop measures of 
mobility--travel time and its reliability. The ten cities that 
participated in this effort were Atlanta; Cincinnati; Detroit; Hampton 
Roads, Virginia; Houston; Los Angeles; Minneapolis-St. Paul; Phoenix; 
San Antonio; and Seattle. Even in these leading cities the level of 
instrumentation is highly variable ranging from 13 percent in the 
lowest city to 63 percent in the highest city. This clearly 
demonstrates the need for a more aggressive approach to the deployment 
of surveillance and detection capability. Based on this analysis and 
our knowledge of other ITS deployments, we believe the cities closest 
to full deployment are Houston, Los Angeles, Minneapolis-St. Paul, 
Phoenix, and Seattle.

    Question 4. I would appreciate it if you would provide further 
information in writing regarding the level of deployment in each of 
these 75 metropolitan areas.
    Response. We have attached the fiscal year 2000 Report on our 
survey results of the 78 largest metropolitan areas. Included in that 
report, on pages 49-51, is a table tracking the deployment levels of 
each city in 1998, 1999 and 2000.

    Question 5. Last year the Federal Communications Commission 
approved ``511'' as a nationwide telephone number for traveler 
information. What is the Department's timeframe for implementing this 
number? How many areas of the country have sufficient ITS 
infrastructure in place to provide the traffic and transit information?
    Response. The Federal Communications Commission's (FCC) order on 
July 21, 2000, approving the use of 511 for traveler information 
delivery, makes seven specific points in the assignment of 511. They 
are:
    1. 511 is assigned to government entities for both wireline and 
wireless telephone services.
    2. Technical details of implementation and cost recovery are left 
with Federal, State, and local transportation agencies to determine.
    3. Federal, State, and local transportation agencies are to 
determine the type of information to be provided.
    4. Federal, State, and local transportation agencies are encouraged 
to ensure that 511 transcends municipal boundaries and is appropriate 
to the national designation of the number.
    5. Transportation agencies are encouraged to determine uniform 
standards for providing information to the public.
    6. U.S. DOT is encouraged to facilitate widespread deployment of 
511.
    7. The FCC will assess the deployment of 511 in 2005 to determine 
if the number is in widespread use.
    The FCC order very deliberately allows broad discretion on the part 
of State and local transportation agencies in the implementation of 
511. Paying for the 511 services is left to the State and local 
agencies to determine. This is not a mandated public service.
    The assignment of 511 is nationwide and the FCC expects that the 
service will be available to the entire traveling public. However, the 
Commission realizes that this nationwide deployment will take time. The 
FCC uses the term ``national scope'' in discussing 511, and many 
segments of the transportation community have interpreted ``national'' 
to mean ``Federal.'' This is not the intent of the FCC. The U.S. DOT 
has been encouraged to facilitate deployment, not mandate it nor 
regulate it.
    The Department has been engaged in activities to facilitate local 
agencies' deployment of 511.
    The Department helped to establish a 511 coalition led by the 
American Association of State Highway and Transportation Officials 
(AASHTO), the American Public Transportation Association (APTA), and 
ITS America. This coalition is developing implementation guidelines 
that will foster consistent 511 deployment from State to State. The 
Department has also made available a 511 deployment assistance grant 
program that will provide up to $100,000 per State to encourage 
transportation agencies to work together with communications providers 
to develop a Statewide plan for 511 deployment. The Department has also 
developed a number of case study reports to describe the deployment 
experiences of six jurisdictions that are considered the ``early 
adopters'' of 511, and white papers to guide transportation 
professionals and officials in the deployment of 511.
    The FCC will look at the deployment of 511 in 2005 to determine if 
there is widespread deployment of 511. The three-digit dialing codes, 
211 through 911, are scarce resources. Thus, if the number is not being 
used, the FCC could reassign the number to another use. However, there 
are no reporting requirements on 511 deployment implied by this 
statement. The U.S. DOT will keep the FCC informed about the status of 
deployment to satisfy this requirement of the FCC.
    The number of areas that have sufficient ITS infrastructure in 
place to provide traffic and transit information grows over time. 
Currently the Department is aware of over 300 telephone numbers that 
disseminate traveler information as well as numerous others that 
provide transit information. Few, if any of them, have complete 
coverage of their entire metropolitan area. Instead they have 
surveillance or sensing information that covers a portion of the 
system, usually that most heavily traveled. Implementation of 511 is 
considered a local matter, so consideration of whether or not enough 
infrastructure is available rests with the local agencies. The 
Department believes there is a need for increased surveillance 
capability nationwide in order to support 511 and other traveler 
information initiatives, as well as for improved operation of our 
highway system, and we are pursuing various initiatives to improve this 
information gap.
                                 ______
                                 
      Responses of Lawrence Yermack to Additional Questions from 
                             Senator Smith

    Question 1. The basic infrastructure to allow traffic monitoring 
usually consists of closed circuit cameras and loop detectors. I am 
interested in how to ensure the limited use of these cameras for 
traffic monitoring purposes only. Is it common for jurisdictions to 
have a policy that does not allow video recording, using images for 
vehicle or personal identification, or using the cameras for purposes 
not related to traffic monitoring, such as law enforcement? Will this 
limitation be incorporated into Federal ITS standards? What research is 
DOT conducting to explore less costly or more technologically advanced 
methods of traffic monitoring that do not involve the use of cameras?
    Response. Surveillance cameras are valuable traffic surveillance 
tools that serve many purposes. Their primary purpose is to confirm 
that an accident or other traffic-impeding incident has occurred, to 
accurately determine the location of the incident, and to determine the 
extent of the incident and therefore the proper response (i.e., are 
serious injuries likely, is there a potential for hazmat release, 
etc.). Surveillance cameras are also used to confirm that various 
traffic control devices are operating properly, such as the gates that 
control reversible High Occupancy Vehicle (HOV) lanes and variable 
message signs. Another type of video camera with video recognition 
capability is now being used to replace more common vehicle detection 
systems such as inductive loops. These systems, while more expensive 
initially, are much more reliable over time than the traditional loop 
detector and therefore are gaining in popularity for such uses as 
controlling traffic signals. Neither of these cameras should be 
confused with cameras used solely for enforcement purposes such as red 
light running systems, which are very different in design and intended 
purpose.
    State and local agencies that use traffic surveillance cameras are 
very sensitive about the improper use of these cameras and have 
policies and procedures in place to ensure proper use. It is very 
common for jurisdictions to have a policy on the use of surveillance 
traffic cameras that does not allow video recording, using images for 
vehicle or personal identification, or using the cameras for purposes 
not related to traffic monitoring, such as law enforcement. In fact, we 
are not aware of any public agencies using cameras for traffic 
surveillance that do not have clear policies in place for the use of 
video images. For example, most, if not all, agencies who share this 
video information with local television stations for traveler 
information purposes also have clear policies about not making images 
available of accidents where vehicles or victims could be identified. 
Strong policies have also been established for other ITS systems, such 
as electronic toll tags, to ensure privacy.
    ITS America has established a set of privacy principles that most 
members of ITS America have adopted for their own use. This is largely 
a State and local responsibility and, since strong policies have been 
developed and adopted by these entities, there does not appear to be a 
need to establish Federal policies, regulations, or standards, at this 
time. The ten ITS America principles deal with such topics as the 
recognition and respect of individual privacy; compliance with 
applicable State and Federal laws on privacy and information use; 
anonymity; and commercial or secondary use.
    In previous years, we have funded a number of efforts to advance 
the State of the art in traffic surveillance and detection and are 
currently evaluating technologies that would allow travel time 
information to be gathered anonymously. We are not currently funding 
any development work in this area, in part, because the State of the 
art in traffic surveillance is so advanced and, in part, because the 
market and therefore the privately funded development efforts are so 
robust. Despite the wide range of surveillance technologies available 
in the market these days, we would conclude, however, that the video 
camera meets a number of special needs in traffic surveillance that 
other detection systems cannot and are not likely to meet in the near 
future. Therefore the use of these cameras is likely to continue to 
expand both in terms of jurisdictions and coverage area. The events of 
September 11 have caused a number of metropolitan areas, including 
Washington, DC, to question the adequacy of their video surveillance 
network to manage traffic during evacuations and other major events or 
incidents.

    Question 2. How can we structure the ITS reauthorization to 
encourage the wider deployment of proven ITS applications that have 
immediate benefits?
    Response. There are three key leverage points which must be put in 
place for widespread deployment and use of ITS funding:
    (1) Full knowledge of the real-time conditions on the surface 
transportation system. For ITS to fulfill its promise of operating the 
surface transportation system at the highest level of efficiency 
requires the availability of real-time traffic, transit, and roadway 
weather information. Today, less than 25 percent of the National 
Highway System is sufficiently instrumented to provide this 
information. If ITS is to be used to improve the management of 
incidents, reduce delays through work zones, adapt to changing weather 
conditions, and respond in emergency situations, we must create the 
incentives and requirements that will result in the quick deployment of 
sensors, cameras, and communication systems, and the creation of a 
nationwide intelligent ``infrastructure.''
    (2) Institutional change. Key to the deployment of ITS, and 
improved operations of the system will be creating points of 
accountability and coordination for systems operations. Existing 
transportation institutions were largely created for and operate from a 
project-based culture. Operating the system is a 24/7 job that requires 
a performance-based approach. It also requires that there be a 
mechanism (similar to the metropolitan planning organizations for 
infrastructure planning) that brings the key players--including non-
traditional partners such as police, fire, emergency response, towing 
operators, parking managers, etc.--to the table to develop and 
implement regional operations.
    (3) Funding. Outside of the ITS program, the use of Federal funds 
for ITS deployment has been limited. States have been slow to take 
advantage of the changes made in TEA-21 that make it clear that ITS is 
eligible under the mainstream Federal-aid highway programs (National 
Highway System (NHS), Surface Transportation Program (STP), Congestion 
Mitigation and Air Quality Improvement Program (CMAQ). Given the 
significant infrastructure needs that exist, it is difficult for ITS 
and operations projects to compete for funding. Acceleration of ITS 
deployment will require stronger support for efforts that increase road 
efficiency through intelligent transportation systems.

    Question 3. ITS deployment has not been significantly funded from 
State formula funds when the funding must compete with construction 
projects. Is the national architecture and standards now mature enough 
that all States can take advantage of ITS formula funds?
    Response. The investments that the Department has made in 
architecture and standards development, as well as training, technical 
assistance and technical guidance, have laid the foundation for the 
nationwide deployment of ITS. In addition, local plans for ITS 
deployment are being established through the implementation of the TEA-
21 requirement on architecture consistency. This requirement will 
result in the development of regional architectures at the State and 
local level. Collectively, these efforts will provide the mechanism for 
guiding future ITS deployments. While continued investment in ITS 
Research and Development is needed, the program is now mature enough to 
support the widespread deployment of ITS through formula funds.

[GRAPHIC] [TIFF OMITTED] T0652.001

[GRAPHIC] [TIFF OMITTED] T0652.002

[GRAPHIC] [TIFF OMITTED] T0652.003

[GRAPHIC] [TIFF OMITTED] T0652.004

[GRAPHIC] [TIFF OMITTED] T0652.005

[GRAPHIC] [TIFF OMITTED] T0652.006

[GRAPHIC] [TIFF OMITTED] T0652.007

[GRAPHIC] [TIFF OMITTED] T0652.008

[GRAPHIC] [TIFF OMITTED] T0652.009

[GRAPHIC] [TIFF OMITTED] T0652.010

[GRAPHIC] [TIFF OMITTED] T0652.011

     Statement of Marty Manning, President-Elect, American Public 
                           Works Association

    Thank you Mr. Chairman and Members of the Subcommittee for the 
opportunity to appear before you today. My name is Marty Manning and I 
am the president-elect of the American Public Works Association. I am 
also the Public Works Director for Clark County, Nevada. My comments 
will be brief and will cover the views of the American Public Works 
Association on this topic as well as the efforts of the local area 
partnership in Clark County, Nevada that is presently working to 
implement intelligent transportation system facilities.
    The American Public Works Association serves more than 26,000 
members concerned with the operation, maintenance, renewal and 
improvement of the Nation's infrastructure by promoting professional 
excellence and public awareness through education, advocacy and the 
exchange of knowledge.
    APWA has a vital interest in the reauthorization of the 
Transportation Equity Act for the 21st Century (TEA-21). In fact, APWA 
has a reauthorization task force currently in place that is working 
diligently to develop and promote APWA's priorities for 
reauthorization. Additionally, APWA has teamed up with other local 
organizations to comprise the Local Officials Transportation Working 
Group, which is made up of organizations representing elected county 
and city officials as well as development organizations, technology and 
city/county managers. APWA also serves as a member of the steering 
committee for the Federal Highway Administration's National Dialogue on 
Operations.
    We hope that you will look to APWA as a valuable resource for you 
and your staff members as reauthorization proceeds. With so many unmet 
transportation-funding needs, APWA believes that it is imperative to 
maintain the basic goals of TEA-21 by protecting the funding firewalls 
and allowing for as much local funding flexibility as possible. 
Further, as our members deal most directly on a daily basis with the 
system users, we have a strong understanding of how to best address 
transportation issues within our communities.
    Recent studies show that traffic congestion costs the country $78 
billion in wasted time and wasted fuel annually. In addition, urban 
area trips take about one-third longer during rush hours and 27 percent 
of the Nation's urban freeways are now congested. This takes a toll on 
the Nation's economy.
    The deployment of ITS tools in conjunction with the construction of 
needed improvements would assure that existing transportation 
infrastructure may operate at a higher capacity and that new 
improvements would also operate more efficiently and be more economical 
to build.
    As you know, Clark County is one of the most rapidly growing areas 
in the Nation. We have come to expect new residents at a rate of 3,000 
to 5,000 a month. We also expect to welcome the arrival of 35 million 
visitors this year to the Las Vegas destination resort area. This 
continuing growth puts a lot of pressure on the area network of 
highways, roads and streets.
    In Clark County, Nevada, we are becoming advocates of the 
management tool products that ITS offers and the capacity and safety 
benefits that they represent. Existing intelligent transportation 
systems are being improved and integrated with new system tools that 
are now being installed. The installation of ITS products in the 
urbanized Las Vegas Valley has only been possible by the creation of 
partnerships among Federal, State and local governments as well as our 
private sector partners.
    As an example, the Las Vegas Area Computer Traffic System provides 
computerized control for the traffic signals in all of the 
jurisdictions in the Las Vegas Valley. The system, operating under an 
agreement among the Nevada Department of Transportation, the Southern 
Nevada Regional Transportation Commission, three incorporated cities 
and the county, provides substantial travel time improvements 
throughout a growing urbanized area with a population of 1.4 million 
people. It has also provided real benefits in air quality. While the 
system was originally installed with a Federal grant and NDOT 
assistance, the incorporated cities and the county pay its annual 
operations and maintenance costs.
    The Las Vegas Area Computer Traffic System was an initial step into 
ITS technology. Recently, further steps have been taken. Additional 
improvements to the system have added new computer hardware and 
software, high-speed telecommunications facilities from the traffic 
signals to the computer, television observation at critical 
intersections, and high tech local traffic signal controllers. In 
addition, the Nevada Department of Transportation is proceeding on 
additional ITS projects to create a highway management system that will 
provide the functions of traffic control, incident management, en-route 
and pre-trip traveler information and a user service for archived data. 
The highway management system called FAST will be integrated with the 
arterial management system under the Las Vegas Area Computer Traffic 
System at a common location shared with the Nevada Highway Patrol 
Dispatching Center. Each system will operate with a common staff and an 
operating agreement among the Nevada Department of Transportation, the 
Southern Nevada Regional Transportation Commission, the three 
incorporated cities and the county.
    Construction of the initial phase of the FAST highway management 
system will begin before year-end and will be completed in two years. 
This construction will encompass the installation of ramp meters at 
select locations; high-occupancy vehicle bypass ramps at metered 
locations; arrangements with the Nevada Highway Patrol for ramp and 
bypass traffic enforcement; dynamic message signage at selected 
locations to provide road condition and incident information to 
motorists and the construction of an arterial and highway management 
operations center. Upon completion of this project, the Las Vegas urban 
area will be well on the way to the creation of an integrated arterial 
and highway management system.
    As a county public works director, I can appreciate the value of 
the ITS management tools and technologies we have already installed and 
the potential values that the additions in new system improvements will 
provide in our urbanized area.
    New technologies and tools that can be deployed to improve 
transportation system management already do and can continue to have 
positive results at the local government level, but primarily in 
communities prepared to enter into cooperative arrangements and 
partnerships with State and other local jurisdictions for the express 
purpose of improving transportation system management. ITS should have 
a continuing role in perfecting transportation system management 
technologies.
    In conclusion, we would recommend the continued support of the ITS 
Program and recognition of its value in identifying and developing 
transportation system management technologies needed to improve the 
capacity and efficiency of the Nation's highways, roads and streets. In 
addition we would recommend that the overall goals of promoting safety, 
efficiency and economy; enhancing mobility; providing accessibility to 
transportation; improving the productivity of travel; safeguarding the 
environment and reducing energy consumption be considered a solid basis 
for the development of the ITS Program of the future.
                               __________
     Statement of Stephen Albert, Director, Western Transportation 
  Institute, Mountain State University, and President, Rocky Mountain 
         Chapter, Intelligent Transportation Society of America

    Good afternoon Chairman Reid, Ranking Member Inhofe, and Members of 
the Committee. I would like to begin by thanking you for this 
opportunity to share our views and perspective on Intelligent 
Transportation Systems and specifically Advanced Rural Transportation 
Systems or rural ITS. WTI/MSU, and actually the entire rural community 
of transportation, tourism, public safety, fleet mangers, National 
Parks, Native Americans and private sectors/interests thank you for 
recognizing the need to address rural transportation issues and 
advanced technology applications at this hearing.
    My name is Stephen Albert, I am the Director of the Western 
Transportation Institute (WTI) at Montana State University (MSU). This 
is the second time I have had the opportunity to present our view of 
rural transportation needs to the Committee.
    The first was in 1996, as part of the Subcommittee's ISTEA 
Reauthorization Field Hearings in Coeur d'Alene, Idaho, to Senators 
Baucus, Warner and Kempthorne.
    WTI's mission is to ``make rural travel and transportation safer, 
more convenient and more accessible.'' Founded in 1994 by the 
California Department of Transportation, Montana Department of 
Transportation and MSU, WTI is the Nation's leading research Center 
focusing on rural transportation issues. With ongoing research, 
demonstration and evaluation projects in 30 States and 10 National 
Parks, WTI was recognized in 1998 by ITS America for our ``outstanding 
achievement in rural ITS.''
    In addition to serving as WTI's director, I also serve as the Rocky 
Mountain ITS America Chapter president, which includes Montana, Idaho, 
Wyoming, Utah, and Colorado, and as vice-chair of the ITS America State 
Chapters Council that represents all 50 States. I also serve on the ITS 
America Advanced Rural Transportation System Committee, U.S. DOT Rural 
Action Team and the National Academy of Sciences, Transportation 
Research Board Task Force on Transportation Needs for National Parks 
and Public Lands. Finally, I recently authored a chapter on Advanced 
Rural Transportation Systems for the Intelligent Transportation Primer 
sponsored by Institute of Transportation Engineers, U.S. DOT and ITS 
America.
    Turning to the subject matter of your hearing today, I am here 
representing not only Western States, but the entire rural community 
and we thank each of you for raising awareness of rural America 
transportation needs and ITS applications. My testimony was developed 
from speaking with stakeholder groups on the East Coast, Southern 
United States, Midwest and Alaska.
    My testimony will address the following three areas:
    Magnitude and severity of rural transportation challenges facing 
this Nation; specific examples and benefits of successful ITS 
deployment; future focus areas where additional emphasis and resources 
should be placed.

                   1. WHAT ARE THE RURAL CHALLENGES?

    For the last 10 years the rural constituents have heard our 
transportation leaders highlight congestion as our Nation's leading 
challenge. Programs such as Operation Time Saver, Model Deployment 
Initiative and others have been the showcase of U.S. DOT. These 
showcase programs have little, if any, direct application to 
approximately eighty percent (80 percent) of our Nation's surface 
roads, or roughly four million miles of roadway. The emphasis of ITS 
applications in urban areas has focused on reducing congestion and 
increasing vehicle throughput and highway capacity, all of which are 
benefits with which rural stakeholders have little in common. Unlike 
urban areas that have congestion as the primary single issue, rural 
needs are more diverse, complex and only tangentially transportation-
related. So what are the rural challenges?

1.1 Safety and Non-Interstate Roadways
    In rural areas safety is of paramount importance. According to 
Federal Highway Administration (FHWA) statistics, sixty percent (60 
percent) of the crash fatalities occur on rural highways, while only 39 
percent of the vehicle miles traveled occur on these roads--a 
disproportionate relationship. These combined facts make rural crash 
rates (the number of crashes per million vehicle miles traveled) 2.5 
times greater than urban areas. In examining the rural crash rate by 
classification of roadway (i.e. interstate, major collector, local 
road, etc.), we find that local roads have a crash rate of 3.68 verses 
interstate crash rates of 1.23--or local roads have a three times 
greater risk factor. Furthermore, single vehicle crashes on 2-lane 
rural roads accounted for 54 percent of all rural crashes in 1998, and 
about 30 percent of these occurred on curves. When these crashes occur 
they are compounded by limited emergency services among communities 
such as volunteer fire and rescue, and remote hospital facilities. 
Emergency response time for crashes in rural areas to receiving aid at 
a hospital is twice as long as in urban areas, according to the 
National Highway Traffic Safety Administration (NHTSA).

1.2 Digital Divide--No Wireless Communication Coverage
    The safety situation on our rural roads is exacerbated by the fact 
that vast rural areas of the United States are without wireless 
communications, which impacts safety and increases infrastructure 
deployment costs. The current and planned conveniences that wireless 
coverage provides for Mayday services, entertainment, and telephone 
service is largely non-existent in rural America. Cellular providers' 
business models are focused on call volume and profit; these do not 
align with rural characteristics. Preliminary research conducted by WTI 
in five Western States indicates that the notification time to learn of 
a crash is two to three times longer where no wireless communication 
exists and near jurisdictional borders. In fact, the medical response 
needs of the ``golden hour'' in remote sections of rural America is not 
measured in minutes, but rather hours. When agencies must consider 
deployment of technology if no wireless coverage exists, then wireline 
services must be constructed. Recently, the Washington DOT had to 
install 30 miles of cable for one closed circuit television camera that 
was needed to monitor and verify safety issues on a rural segment of 
highway. These types of communication challenges do not exist in an 
urban environment.

1.3 Weather Impacts Every Day Life
    Weather can be deadly in many regions of the United States. Stories 
of travelers stranded in rural communities due to road closures, 
vehicles trapped in snow banks, and flooding and hurricanes destroying 
or isolating communities are now becoming more frequent events. In 
November 2000 a snowstorm in Rollins, Wyoming closed I-80 and resulted 
in 31 miles of semi-tractor trailers backed-up with no fuel, no 
services and no way to communicate the closure or re-opening of the 
roadway to drivers. According to FHWA there are approximately 7,000 
fatalities and 450,000 persons injured each year due to weather related 
events. ITS technologies are available to mitigate the effects of 
circumstances such as this; however, additional funding for rural ITS 
deployment is critical.

1.4 Tourism and Economic Viability
    Tourism is a critical concern to the economic viability of numerous 
rural communities. According to the Travel Industry Association of 
America in 1998, travel and tourism in the United States is the 
Nation's largest export industry and second largest employer, 
accounting for over $515 billion in expenditures, resulting in 7.6 
million jobs and accounting for 1.3 billion domestic trips. In most 
States, tourism is the second leading economic indicator and considered 
the key to the economic future of many States. Based on rural ITS 
outreach workshops conducted in 15 States by WTI, in partnership with 
FHWA, the travel and tourism community have identified concerns in the 
following areas: directional signing; timely and accurate information; 
coordination of traffic management alternatives; seasonal and special 
event traffic management; parking information; regional sharing of 
information and services; and funding. In summary, an efficient 
transportation system is essential to rural communities who depend on 
tourism revenues for their survival. Providing real-time information to 
tourists, via ITS, is the key to encouraging greater tourist activity 
in rural areas and enhancing their economies.

1.5 Federal Lands, National Parks and Native Americans
    Two distinct groups of target areas that highlight rural 
environment are issues associated with Federal lands and Native 
American lands as well as users of those areas. As an example of our 
Federal lands consider National Parks and transportation. The impact of 
our National Park Service on regional economies and their 
transportation systems should not be underestimated. In order to 
provide a framework on the impact of the NPS consider the following NPS 
statistics:
    <bullet> Scale--374 parks in 49 States, 18 million acres;
    <bullet> Employees--19,200;
    <bullet> Economic activity--$14 billion, supporting 309,000 jobs;
    <bullet> Visitation--266 million visitors, demand increasing 500 
percent over the next 40 years.
    With a broad impact and visitation on the increase, the NPS is 
under extreme pressure to provide increased services with fewer 
resources, while simultaneously trying to provide stewardship for an 
environment they are entrusted to protect for future generations. As 
our National Parks become increasingly ``loved to death,'' it is 
apparent that respective transportation systems and associated services 
are a critical issue.
    The second area is our sovereign Native American lands where 
safety, economic viability and transportation are the key issues. 
Research has shown that Native Americans die in motor vehicle crashes 
at rates six times that of the rest of the Nation and \3/4\ of Native 
American traffic fatalities involve alcohol. Unemployment rates on 
reservations often exceed 70 percent, over 10 times the national rate. 
Last, only 29 percent of tribes have any form of transit system. The 
issue of economic viability was the most important issue identified by 
300 Native American tribes in a recently completed survey by WTI to 
assess tribal and transportation needs. Safety needs were second 
priority, followed by tourism and traveler information. Here again, ITS 
deployment will have a positive impact by providing enhanced safety and 
traveler information.

1.6 Animal Conflicts
    Each year there are approximately 726,000 animal-vehicle crashes. 
These crashes rarely result in fatalities, but at approximately $2000 
per incident in property damage, the annual cost nationally amounts to 
over $1 billion. The growth of suburbs into wildlife corridors 
contributes to the problem, however, these accidents occur at higher 
speeds and with greater frequency in rural areas. Today's deer 
population alone is greater than 25 million. Accidents with deer and 
other animals are only going to increase as populations expand and 
urban development encroaches into rural areas.

1.7 Public Mobility
    Unlike urban areas, where public transportation service is 
implemented to provide transportation for employment purposes or as a 
means of reducing congestion, in rural areas public transportation 
service has a direct impact on the quality of life of many rural 
residents. According to the Federal Transit Administration (FTA), 
approximately 38 percent of the rural population has no access to 
public transportation and another 28 percent has little access. Even 
when public transportation exists, little or no information is 
available about the services. Furthermore, service is sometimes 
restricted to weekends, evenings, or designated days of the week. Low 
population density in rural service areas makes it difficult at best to 
deliver public transit services. Where neighbors often live miles 
apart, trip distances are long, and travel to common origin and 
destinations are infrequent, public transportation providers find 
economically viable solutions to their problems difficult to identify 
and extremely costly to implement.
    Rural transit agencies typically operate small fleets that provide 
service to these sparsely settled areas. In fact, most Section 18 
recipients (60 percent) serve areas with fewer than 100 persons per 
square mile using 8 to 15 passenger vans. In addition to service 
limitations associated with the size of the fleets, rural 
transportation must also meet the diverse needs of a broad range of 
users including elderly, handicapped, and financially disadvantaged 
individuals. The demands placed on the fleet staff by the service 
requirements, the various vehicle equipment requirements, and the 
payment systems or subsidies used to finance those services are also 
factors to be considered. Finally, local coordination must determine 
what types of transportation services can be provided to rural 
residents and how providers must work together on meeting the needs of 
their rural residents.

1.8 Commercial Vehicles, Goods Movement and Long-distance Trips
    The movement of goods is critical to the economy of the United 
States and the rural interstate system is an essential component in the 
process. Rural interstates are, in essence, the arteries over which 
flow the goods to be distributed to citizens throughout the country. On 
many rural highways, 30 percent of traffic is commercial vehicles, and 
their numbers continue to grow. This increase is a result of many 
closures of rail lines that served rural communities and freight 
centers, such as grain elevators. In many instances rural America is 
inheriting the traffic from urban areas that moves within and between 
its' communities.
    Commercial vehicle operators have identified several transportation 
needs associated with rural travel, such as the frequency with which 
they must stop at weigh stations for verification of permits, load 
limitation checks, and safety inspections. Every time a commercial 
vehicle stops at a weigh station or a border crossing, it costs the 
carrier money. Therefore, measures to increase the operational 
efficiency of the system or reduce travel delays for the commercial 
vehicle operators are considered of primary importance. ITS technology 
exists today to dramatically reduce these costs. For instance, vehicles 
traveling across the country often must pass through multiple tolling 
systems, efficiency in terms of time savings could be realized through 
the use of electronic payment systems on toll roads.

1.9 Diversity and Understanding
    Rural areas are challenged in that there are few issues and 
application similarities among different locations and regions (i.e. 
Cape Cod, MA; Brandon, VT and Eureka, CA). This diversity challenge is 
further complicated by the fact that ``transportation is not the hook'' 
to bring stakeholders together, and the stakeholders typically do not 
have frequent opportunities to meet to develop a common vision. They 
also lack facilitation and oversight as provided by a metropolitan 
planning organization (MPO). These issues of diversity, lack of 
understanding of ITS benefits and the absence of a Federal process that 
treats rural ITS projects on a level playing field with urban ITS all 
contribute to the many institutional issues and delays in deployment. I 
believe very strongly that now is the time for U.S. DOT to step up to 
the plate and provide a level playing field and provide adequate 
resources to respond to rural transportation needs that urban areas 
have enjoyed over the last several years.

        2. advanced rural transportation systems success stories
    Now, having made that last statement, I do want to recognize a 
number of success stories that have taken place in rural areas. In 
recognition of the rural issues in need of attention, the United States 
Department of Transportation's (U.S. DOT) Joint Program Office 
established the Advanced Rural Transportation Systems (ARTS) program in 
1997. The ARTS Program has been defined by development tracks that 
categorize the various technology tools that can be utilized to address 
user needs in the various rural communities. The development tracks 
include emergency services, tourism and travel information, traffic 
management, rural transit and mobility, crash prevention and security, 
operations and maintenance, and surface transportation and weather. I 
would like to highlight some of the successful projects that have been 
implemented at the local level.

2.1 Crash Prevention and Security
    The technology applications relating to this area focus on the 
prevention of crashes before they occur and on reducing severity when 
they do. Many State departments of transportation are targeting three 
areas of focus to address these needs: speed management, intersection 
collision avoidance and animal collision avoidance. To manage travel 
speed in mountain passes, Colorado DOT has implemented a dynamic 
downhill speed warning system on I-70 west of Denver, outside the 
Eisenhower Tunnel. The system measures truck speeds, weight, and number 
of axles and advises the driver of the appropriate speed. The truck 
speed warning system was installed on a narrow curve that has a design 
speed of 45 mph. The average truck speed around this curve has dropped 
from 66 mph to 48 mph since the installation of the warning system. The 
system has eliminated approximately 20 truck runaways and 15 truck 
related crashes per year. California DOT has implemented a similar 
speed warning system for passenger cars and trucks near Redding 
California along I-5 in Sacramento Canyon. The system has reduced 
travel speed and reduced the number of accidents, and has provided 
California DOT an opportunity to showcase technology that can save 
lives.
    In Maine and Virginia, the DOTs are implementing an intersection 
collision avoidance system that uses detectors at all approaches of an 
intersection to track vehicles nearing the intersection. The detectors 
use parameters such as the presence and speed of a vehicle to display 
warnings to drivers approaching both from the major and minor roads. 
These messages read ``Cross Street Traffic Is Approaching'' and ``Watch 
Out For Cross Traffic.'' These systems have reduced accident experience 
and provided advance warning in rural areas.
    A third project that can be highlighted to address crash prevention 
is the Animal-Vehicle Crash Mitigation Project, which involves 15 
States and will demonstrate technologies to detect animals in the 
rights-of-way through microwave technology sensing systems and inform 
the drivers upstream of the encroachment. If successful, this project 
may help to reduce the approximately $1 billion lost on animal-vehicle 
collisions each year.

2.2 Emergency Services
    This area concentrates on the services provided by law enforcement, 
fire departments, emergency medical services, and related 
organizations. The organizations usually are multi-jurisdictional in 
nature, involve complex operations and require a great deal of 
coordination. Recognizing these challenges the Virginia DOT sponsored 
the Northern Shenandoah Valley Public Safety Initiative. The project's 
goals are to enhance the collection and communication of critical 
accident victim patient data between the on-scene emergency medical 
personnel and the receiving hospital through the use of hand-held 
portable digital assistance devices. Use of the off-the-shelf PDA's has 
improved patient outcome, improved on-scene, en-route and emergency 
room patient services, improved data collection, all in addition to 
incident management coordination. A similar system is being deployed in 
Montana too.
    In Texas, the San Antonio Fire Department has utilized ITS with 
LifeLink. LifeLink is designed to link the ambulances located on or 
near San Antonio's freeway system with a hospital in the City. Each 
ambulance is equipped with videoconferencing hardware and software to 
provide 2-way video and voice between the ambulance and an ER or trauma 
physician at the hospital. The equipment can also send vital signs and 
cardiac data to the hospital. These technologies are designed to assist 
with the issues associated with the golden hour to save lives. The city 
of Tucson and the State of Nebraska are implementing a similar system, 
too.

2.3 Tourism and Traveler Information
    As stated previously, tourism supports the economic viability of 
rural communities with approximately $500 billion annually. This 
technology application area focuses on the core infrastructure to 
provide information and data exchange between organizations and the 
traveler. Examples of successful projects include the deployment of 
traveler information systems (kiosks, highway advisory radio, variable 
message signs, internet sites) in tourist locations such as in 
Flagstaff, Arizona along I-40 near Grand Canyon National Park and 
Branson, Missouri where the number of annual visitors is more than one 
thousand times greater than the resident population.
    Two unique applications of technology that have been showcased 
recently are the Yellowstone National Park Smart Pass project and the 
Oregon DOT Travel Time Estimation project. As you know, our National 
Parks are experiencing increasing visitation and traffic congestion. 
The Yellowstone National Park Smart Pass will provide frequent users 
and local residents with an electronic pass and a designated lane at 
entrance gates to bypass congestion. The Oregon DOT Travel Time 
Estimation project will provide ODOT with the ability to collect 
travel-time data on U.S. 39/101, a high volume recreation corridor, 
through license plate ``capture'' technology. The license plate can be 
captured along the route and be used as a ``probe'' to determine if 
incidents have taken place. The license plate image is scrambled and 
discarded after use and to avoid privacy issues.

2.4 Traffic Management
    This area of application focuses on technologies to control 
operations as well as provide guidance and warning of traffic to 
improve travel on roadways. As in the area of emergency services, 
coordination is the key to success. Three examples of success are the 
Duluth Transportation Operations and Communication Center, for jointly 
managing transportation with other organizations, the Arizona DOT 
Highway Closure Restriction System, and the Oregon DOT TripCheck for 
developing virtual applications to collecting and disseminating 
information to multiple organizations to manage traffic. At the Duluth 
Transportation Operations and Communication Center, MinnDOT jointly 
manages the transportation system with State police and transit 
organizations to provide seamless transportation services. In order to 
provide for decentralized information collection and dissemination, the 
Arizona DOT and Oregon DOT utilize the internet whereby organizations 
can enter road closure, lane restrictions, unsafe road conditions, and 
parking information into the system and all agencies can view the 
status of those conditions. The ODOT TripCheck system includes images 
from closed circuit cameras at mountain passes and other locations and 
is directed predominantly at DOT staff, but the information can be 
viewed by the general public, too. During the peak usage the number of 
users have exceeded 350,000 per month.

2.5 Rural Transit and Mobility
    This area focuses on increasing access to transportation for those 
who are mobility impaired through transit/para-transit services. As 
stated previously, providing mobility service to vast geographic areas 
is difficult from the perspective of cost effectiveness and 
communications infrastructure. One project that has accomplished this 
is the global positioning system project in Ottumwa, Iowa for the 
Ottumwa Transit Authority. The OTA provides public transit service in 
southern Iowa that includes Ottumwa, and the surrounding 10 counties. 
The service area is a very large, low-density rural area of 5000 square 
miles, and 149,000 people. To overcome communication coverage the OTA 
had to create a communications backbone to support the gathering and 
distributing of data over such a broad geographic distance. This was 
accomplished by establishing a 4-tower radio network. Using space on 
existing towers strategically located throughout the area at the 
furthest points enabled OTA to eliminate ``black holes'' in 
communication between buses and the office. Data is gathered at these 4 
tower sites, and transmitted to a central location in Ottumwa. Via 
microwave link, the data is transmitted between the central tower and 
the central office (dispatch). This network has successfully enabled 
OTA to track each vehicle and provide electronic messages between the 
office and buses.

2.6 Operations and Maintenance
    This development track focuses on improving the efficiency and 
capabilities of service to maintain and operate our transportation 
system. Because resources are more scarce and distances greater than 
urban areas, the ability to operate and maintain transportation 
infrastructure and the roadway system is paramount. Example projects 
include the operation of automated anti-/de-icing of bridges, and 
advanced technology for snowplows and agency vehicle monitoring. The 
Automated Anti-/De-Icing on Bridges enables the remote application of 
anti-icing and de-icing chemicals to the roadway. The system uses 
atmospheric and pavement sensors to provide early warning of changing 
conditions. When weather conditions reach certain criteria, the 
application of chemicals is automatically performed. The system reports 
to maintenance personnel when the chemicals have been applied. The 
maintenance personnel also can call the system using a cellular phone 
to override the sensors and activate the chemical application. A second 
example is the application of technologies to winter maintenance 
activities to monitor snowplow fleets, spreading applications, and 
vehicle collision warning and route guidance. The Iowa, Michigan and 
Minnesota DOTs are utilizing technology to monitor agency vehicles 
(e.g. chemical applications, vehicle location, plow up/down, etc.) at 
to a central point. In California and Arizona, the State DOTs have 
instrumented snowplows and the mountain pass roadways with technologies 
to allow for vehicle tracking in the roadway for lane guidance and 
collision avoidance systems to warn motorists of close proximity. In 
California and Arizona, the snowplow operators were surveyed and the 
systems were found to increase their safety, productivity and 
efficiency.

2.7 Surface Transportation and Weather
    This development area focuses on improved weather information 
systems and maintenance technologies for all types of weather 
conditions. Accurate road and weather information can mean the 
difference between life and death.
    Example projects include the Greater Yellowstone Weather and 
Traveler Information System and the U.S. DOT Field Operation Test 
called FORETELL. The Greater Yellowstone Weather and Traveler 
Information System will develop and integrate the SAFE-PASSAGE mountain 
pass pavement temperature prediction model, and a road and weather 
condition information system that delivers trip-specific weather 
forecast and road reports via cellular telephone by dialing #SAFE in 
North Dakota, South Dakota, Minnesota and soon Montana and Nebraska. 
The #SAFE system will provide road and weather information 40 to 60 
miles (or 1-1\1/2\ hours travel time) ahead of the direction of travel. 
The #SAFE system has been used by over 300,000 motorists, with a 
monthly average of 16,000 per month and the median use of the system is 
25 times per year, mostly in the winter. A recent survey found that 94 
percent of the users of the system found it beneficial.
    The second project, FORETELL, is also a multi-state public-private 
partnership which brings together all available weather data sources, 
including satellites, radars, and surface sites including National 
Weather Service Department of Defense, aviation and conventional DOT 
road-weather information stations to create nowcasts and forecasts. The 
FORETELL project is initially targeted as an internet maintenance 
management tool but later will be expanded to provide traveler 
information. The States involved in the FHWA project include Iowa, 
Missouri, Maine, New Hampshire and Vermont.

                     3. what are the future needs?
    While there have been success stories as highlighted by my previous 
testimony there are some very real gaps and opportunities that must be 
addressed. To date, U.S. DOT has predominantly concentrated on urban 
ITS and discounted the need to address rural challenges in any 
realistic programmatic level. To quote one DOT Chief Engineer, ``the 
highest use is not necessarily the highest need.'' Prevailing attitudes 
must change if rural challenges are to be addressed. The time to 
address rural needs has arrived and we need Federal leadership and 
commitment. The following recommendations are proposed from rural ITS 
constituents around the country including myself.

3.1 Conduct Outreach and Professional Capability Building Seminars
    Rural stakeholders have little understanding or conceptualization 
of how advanced technologies can impact their daily lives; the phrase 
``ITS'' is unknown to most organizations beyond DOTs. In fact, because 
ITS has been so frequently described as a congestion management tool, 
the word ``ITS'' is best not used in a rural environment because of the 
images that may come to mind. While outreach has occurred it has only 
taken place as a result of various national leaders in the field, and 
not any planned Federal initiative. In the last year a variety of 
outreach materials (e.g. ITS America's State-of the-ARTS document, 
Rural ITS Toolbox, ARTS CD Outreach Presentation materials, 
incorporating rural needs into the National Architecture, Guidance 
document) have been developed that can be used to perform outreach and 
training to rural stakeholders. Given that Federal dollars to develop 
Early Deployment Plans were only available to urban areas with 
populations over 50,000 and guidelines exist that regionally 
significant projects need to develop regional architecture, there 
should be a commitment to provide outreach and training in rural areas 
more than at just a statewide level. Also, it is important that these 
outreach and professional capability building activities occur in rural 
communities where stakeholders live rather than large urban centers.

3.2 Integrate Funding and Increase Awareness
    In attempting to develop a rural ITS project one learns quickly 
that Federal and State agencies are only concerned about their 
individual mission rather than the crosscutting solutions. In essence, 
each agency is ``stove-piped'' in their perspective and funding. Also, 
Federal and State agencies are not aware of respective funding 
opportunities to advise rural constituents. The process to initiate a 
project from the Federal level is the same no matter the dollar amount. 
While these issues may appear inconsequential they are the very real 
institutional barriers that inhibit ITS deployment.
    Rural areas have challenges that are aligned to more than just the 
departments of transportation missions, including agencies such as 
agriculture, health and human services, public safety, tele-
communications, tourism, and more. To integrate funding and increase 
awareness of opportunities, it is recommended that a blue-ribbon 
committee be formed to create a one-stop shopping process or even a 
clearinghouse, develop an awareness program for rural funding 
opportunities, review the project initiation approval process, and 
determine if a block-grant approach may be more feasible for ITS 
deployment that would horizontally cut-across Federal agencies. In fact 
a model for this effort already exists at Federal Lands Highway Program 
with the award-winning www.recreation.gov website. This website 
received honors including the National Performance Review Hammer Award, 
Government Executive magazine ``best Feds on the web'' award, and 
Trailblazer award by E-Gov 2001 as outstanding example of government 
best practice.

3.3 Improve Communications Coverage to Provide a Basic Level of 
        Detection, Increased Safety and Reduced Deployment Cost
    Communication coverage is critical to achieve a level of detection 
on rural highways to improve safety and lower installation deployment 
costs. Currently, the times to detect, respond, and provide service at 
an incident is typically twice that of an urban area. If we are to 
manage our rural roadways in a safe and prudent manner then some level 
of basic infrastructure to detect problems and a communication system 
to transmit that data must be created and funded. Critical to the basic 
level of detection needed is a communication backbone.
    Second, the vision of Public Law 106-81 is to encourage and 
facilitate the prompt deployment throughout the United States of a 
seamless, ubiquitous, and reliable end-to-end infrastructure for 
communications, including wireless communications, to meet the Nation's 
public safety and other communication needs. Nowhere in America does 
the congressional intent of the Wireless Communications and Public 
Safety Act of 1999 hold more promise than in rural States. Rural States 
record less than 25 percent of the 17 million annual car accidents but 
these collisions result in 60 percent of all fatalities. Twenty-five 
thousand Americans die each year on our rural highways because the 
promise of the technology has yet to be fully realized. Emergency 
medical personnel refer to the time immediately following a crash as 
the ``Golden Minutes and Golden Hour.'' It is estimated that 40 percent 
of all 911 call are cellular based. Given that rural America has large 
pockets of ``dead zones'' (no cellular wireless service), a new or 
improved model will need to be developed to increase communications 
coverage. This new model may be similar to the Rural Utility Service 
but at a minimum it may require a Federal subsidization for private 
carriers that cannot achieve the return on investment that the high 
volume urban subscriber models deliver. If ITS deployment is going to 
be achieved and a ``seamless'' transportation system envisioned then 
communication coverage must be addressed in rural America.
    Third, by providing the communication coverage (wireless/wireline) 
the installation cost of ITS deployment will be reduced thereby 
allowing an increased number of solutions. As previously highlighted in 
the Washington DOT example of 30 miles communication cable for one 
closed circuit television camera, it is unrealistic to have this as the 
norm.

3.4 Develop Regional Projects and Partnerships
    Travelers do not see the jurisdictional State boundaries as they 
plan or complete trips, nor do they care, and yet most ITS projects are 
developed with only a single State in mind. While there are a handful 
of truly regional scale initiatives such as the Greater Yellowstone 
project (Montana, Wyoming, Idaho), California--Oregon Advanced 
Transportation System, CANAMEX Corridor (Canada, Montana, Idaho, 
Nevada, Arizona, Mexico), I-95 Corridor Coalition, Gary-Milwaukee-
Chicago Corridor, they are limited. Regional scale projects focused on 
the travel sheds that motorists use need to address a national system 
and to encourage public-private partnerships to develop the economies 
of scale needed to minimize risk.

3.5 Implement Regional Servers for Data and Information Exchange 
        Between Stakeholder Groups
    Central to any architecture developed for rural projects across the 
country is the need and ability to exchange data and information. Many 
States are implementing internet based solutions and developing virtual 
``traffic management centers'' because they realize a decentralized 
information collection and dissemination process that includes all 
stakeholder groups (transit, tourism, public safety, fleet mangers, 
National Parks, Native Americans) is more critical to manage the 
transportation system in rural America. To accelerate the ability to 
exchange data and information to provide for communication, cooperation 
and coordination, funds should be allocated to implement regional 
``internet'' based servers throughout the 50 States.

3.6 Increase Research Funding and Provide for More Adaptive Standards
    Because the majority of deployment has been done as a result of 
State lead efforts rather than Federal, and because State DOT's tend to 
be more concerned about implementation than evaluation (or they 
intuitively know the benefits), there has been only a marginal amount 
of research as to the quantified benefits of rural ITS. If ITS is to be 
accepted by rural communities and eventually mainstreamed as a viable 
solution, the benefits of ITS applications need to be known before 
considering more traditional measures (e.g. widening the road versus 
dynamic speed warning system). Funding for research, specifically 
targeted for rural ITS, should be set aside to allow for a more robust 
evaluation of current and planned deployment.
    Standards are developed to allow for ITS deployment 
interoperability. While this is a general goal that everyone can agree 
with, many in the rural community feel that it should be accelerated 
and that there should be flexibility to allow for a rural needs to be 
addressed and not a ``one size fits all'' mentality that is aligned 
with the requirement of larger urban center requirements.

3.7 Create a Rural Model Deployment Initiative
    To date, the majority of rural ITS planning and deployment has been 
the initiative of individual States. If the U.S. DOT truly wants to 
take a leadership role, then an opportunity I recommend would be to 
create a Rural Model Deployment Initiative similar to the Metropolitan 
Model Deployment Initiative, but concentrated on a more regional/rural 
scale as discussed previously. It should be noted that Rural Model 
Deployment Initiative can be similar to the Metropolitan Model 
Deployment Initiative, but it will fail if one attempts to take the 
applications from urban and just apply them to rural. This new 
Initiative may need to be more cross-cutting in determining how 
technology can assist several organizations in performing their day-to-
day activities rather than just one organization. An example may 
include the use of Automatic Vehicle Location systems for the combined 
needs of transit, maintenance fleets, public safety fleets, and 
ambulances.

3.8 Build on Successful Tourism Partnerships to Create Jobs
    Tourism is the economic engine of rural America! To allow ITS to be 
more effective the focus and attention toward tourism partners that may 
ultimately be the implementers of ITS must be increased to spur 
economic activity and create jobs. It should be noted that at this time 
while traveler information systems have been found effective in 
providing information, it is unknown to what extent they contribute to 
increase economic activity, but it appears plausible.
    In closing, while there are isolated success stories that can be 
highlighted, there are still many challenges yet to be addressed. In 
keeping to the rural spirit, the Subcommittee and U.S. DOT have an 
opportunity to be ``pioneers'' in making a renewed rural ITS 
commitment. As we like to say in the West--Our forefathers were 
pioneers, not settlers!
  


</pre></body></html>
